<html>
<title> - NOMINATION OF GENERAL DAVID H. PETRAEUS TO BE DIRECTOR, CENTRAL INTELLIGENCE AGENCY</title>
<body><pre>[Senate Hearing 112-307]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-307
 
                NOMINATION OF GENERAL DAVID H. PETRAEUS
              TO BE DIRECTOR, CENTRAL INTELLIGENCE AGENCY

=======================================================================



                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                        THURSDAY, JUNE 23, 2011

                               __________

      Printed for the use of the Select Committee on Intelligence


         Available via the World Wide Web: http://www.fdsys.gov




                  U.S. GOVERNMENT PRINTING OFFICE
72-743                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 DIANNE FEINSTEIN, California, Chairman
                SAXBY CHAMBLISS, Georgia, Vice Chairman

JOHN D. ROCKEFELLER IV, West         OLYMPIA J. SNOWE, Maine
    Virginia                         RICHARD BURR, North Carolina
RON WYDEN, Oregon                    JAMES E. RISCH, Idaho
BARBARA A. MIKULSKI, Maryland        DANIEL COATS, Indiana
BILL NELSON, Florida                 ROY BLUNT, Missouri
KENT CONRAD, North Dakota            MARCO RUBIO, Florida
MARK UDALL, Colorado
MARK WARNER, Virginia
                     HARRY REID, Nevada, Ex Officio
                 MITCH McCONNELL, Kentucky, Ex Officio
                    CARL LEVIN, Michigan, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                              ----------                              
                     David Grannis, Staff Director
            Martha Scott Poindexter, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk


                                CONTENTS

                              ----------                              

                             JUNE 23, 2011

                           OPENING STATEMENTS

Feinstein, Hon. Dianne, Chairman, a U.S. Senator from California.     1
Chambliss, Hon. Saxby, Vice Chairman, a U.S. Senator from Georgia     3
Lieberman, Hon. Joe, a U.S. Senator from Connecticut.............     5

                                WITNESS

Petraeus, David H., Director-Designate, Central Intelligence 
  Agency.........................................................     7
    Prepared statement...........................................    12

                         SUPPLEMENTAL MATERIAL

Prepared statement of Senator Roy Blunt..........................    32
Questionnaire for Completion by Presidential Nominees............    54
Prehearing Questions and Responses...............................    80
Additional Responses to Questions for the Record.................    87
Letter from Don W. Fox, Office of Government Ethics, Dated June 
  9, 2011, Transmitting Public Financial Disclosure Report.......   123


                     NOMINATION OF GENERAL DAVID H.



          PETRAEUS TO BE DIRECTOR, CENTRAL INTELLIGENCE AGENCY

                              ----------                              


                        THURSDAY, JUNE 23, 2011

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:33 p.m., in 
Room SH-216, Hart Senate Office Building, the Honorable Dianne 
Feinstein (Chairman of the Committee) presiding.
    Committee Members Present: Senators Feinstein, Rockefeller, 
Wyden, Mikulski, Nelson of Florida, Conrad, Udall of Colorado, 
Levin, Chambliss, Snowe, Burr, Risch, Blunt, Rubio, and McCain.

 OPENING STATEMENT OF HON. DIANNE FEINSTEIN, CHAIRMAN, A U.S. 
                    SENATOR FROM CALIFORNIA

    Chairman Feinstein. The hearing will come to order.
    I've just been told the Vice Chairman will be five or ten 
minutes late. But it's going to be a long afternoon and I think 
we should begin.
    The Committee meets today to consider the President's 
nomination of General David Petraeus to be the Director of the 
CIA. General, welcome and congratulations on your nomination.
    The way we will proceed--and I trust it's agreeable--I'll 
make a statement, the Vice Chairman will make a statement.
    Senator Lieberman, it's my understanding you're going to 
introduce General Petraeus.
    And then the general will speak and then we'll do our Q&A.
    So, General, I'd like to recognize your wife, Holly 
Petraeus, who in addition to being the key behind your success, 
of course, is also serving the nation herself, recently 
becoming the Assistant Director of the Consumer Financial 
Protection Bureau, where she's in charge of protecting and 
assisting the service members.
    Mrs. Petraeus, we're delighted to have you here this 
afternoon.
    This nomination comes in the midst of a summer of 
significant change in the national security challenges and 
posture of the United States. Military and intelligence gains 
in Afghanistan and Pakistan have for the first time in years 
shifted the momentum from the Taliban and associated forces to 
the United States and coalition partners.
    But these gains are still reversible. President Obama's 
announcement last night of a withdrawal this year of 10,000 of 
the surge troops will have an impact on operations after this 
summer's fighting season, and I'm sure Members will want to 
hear your views, General, on that, as well as on the overall 
situation.
    The death of Usama bin Laden in a CIA Intelligence 
operation carried out by United States special forces marks a 
strategic shift in our decade-long efforts against al-Qa'ida 
and transnational terrorist groups. But the near-term threat 
from retaliatory strikes has gone up.
    There is unrest and revolution across the Middle East and 
northern Africa, affecting key allies and countries of concern 
alike.
    At home, the nation's economic and financial struggles are 
requiring a new level of fiscal discipline, which means that 
the major increases of intelligence resources since 2001--and 
the CIA budget has virtually doubled in that time--will likely 
end and the intelligence community will have to do more with 
less.
    In Washington, the President's national security team is 
changing, with Secretary Gates retiring at the end of next 
week, Director Panetta moving across to the Pentagon, and 
Ambassador Ryan Crocker likely to be confirmed soon for his 
posting to Afghanistan.
    The CIA has been involved in or affected by all of these 
changes. If confirmed, General Petraeus will have the 
opportunity to shape the Agency's response to the new realities 
we now face, and our purpose today is to understand how he 
intends to carry out that charge.
    General Petraeus is a long-time consumer of intelligence, 
as the top general in both Afghanistan and Iraq. He has been 
the combatant commander for a portion of the world where 
intelligence operations play a key role, and he is especially 
aware of the coordination between military special ops and 
intelligence covert actions. So he comes to this nomination 
with a deep familiarity of the intelligence community and of 
the CIA in particular.
    Still, the Committee is always mindful that the CIA is by 
far the biggest of the civilian intelligence agencies. While 
the majority of our intelligence dollars are spent in the 
Department of Defense, the CIA is tasked to provide independent 
strategic assessments to the President. It is by design outside 
of the military chain of command and supposed to balance the 
need to provide intelligence to warfighters with the need to 
operate and make assessments globally.
    To be sure, CIA directors have in the past come from a 
military background. I believe there are seven of them. And 
General Petraeus and I have discussed this privately, and he 
has assured me that he understands and appreciates the need for 
independence. And so we look forward to continuing that 
conversation today.
    I've also asked General Petraeus to explain his vision of 
the CIA and will do so again today so that the Committee has 
some insight into his thinking.
    Members of the Committee don't need an introduction to 
General Petraeus, but let me just give you a couple of brief 
highlights. He is without question one of the finest officers 
and military minds of his generation. He has presided over the 
shifting of momentum to our favor in Afghanistan and he has 
engineered, with other important contributing factors, a 
victory in Iraq when defeat often seemed inevitable.
    He has demonstrated outstanding loyalty and service to this 
country, agreeing to step down from being the commander of 
CENTCOM to replace General Stanley McChrystal in Afghanistan 
last year.
    At that time, the Senate moved in near record speed, with 
the Armed Services Committee holding a hearing and reporting 
out the General's nomination on the same day, and the Senate 
confirming him one day later with a 99-0 vote.
    I'd note as well, and I know Senator Lieberman will do this 
in more detail, he's also earned a Ph.D. as well as a master's 
from Princeton, which I believe will serve him well.
    Following the Abu Ghurayb scandal and the ensuing debate 
over detention and interrogation policy, General Petraeus wrote 
an open letter to all soldiers, sailors, airmen, Marine and 
Coast Guardsmen sharing under his command in Iraq. Here's what 
he wrote: ``Our values and the laws governing warfare teach us 
to respect human dignity, maintain our integrity and do what is 
right. Adherence to our values distinguishes us from our 
enemy.''
    I fully agree. It's enormously important to have a Director 
of the CIA who is guided by these values and has a sense of 
right and wrong and not only what may or may not be possible.
    Let me just say one more thing. The Senate confirmed 
Director Panetta to be Secretary of Defense by a vote of 100-0 
on Tuesday. Even if and when confirmed, General Petraeus will 
not resign his commission and come to the CIA until he's able 
to transition the mission in Afghanistan to General Allen. So, 
for much of the summer the CIA will be under the acting 
directorship of Mike Morell, the current Deputy Director and 
lifelong CIA officer.
    I want to state for the record that the CIA and the 
government is very lucky to have such a fine and capable 
officer at the helm during this difficult time. And I know that 
he will be a valuable deputy when you take office, General 
Petraeus.
    Let me now turn to the distinguished Vice Chairman for his 
opening remarks.

  OPENING STATEMENT OF HON. SAXBY CHAMBLISS, VICE CHAIRMAN, A 
                   U.S. SENATOR FROM GEORGIA

    Vice Chairman Chambliss. Well, thank you, Madam Chairman.
    General Petraeus, I congratulate you on an exemplary 
military career as we consider your nomination to be the 22nd 
Director of the Central Intelligence Agency.
    I'd like to welcome your wife, Holly, as well, who has not 
only supported you and the military throughout your career, but 
has also worked to protect military families from predatory 
lending practices. We appreciate her being here to support you 
again as your nation calls on you for another challenging 
assignment.
    Your nomination comes at a pivotal moment in our history as 
we face threats from across the globe. As a warfighter, you 
bring a unique perspective to the table, having seen firsthand 
the tactical value of accurate and timely intelligence.
    While a key part of CIA'S tactical mission is to support 
the warfighter, it serves primarily as a civilian strategic 
collection and analytic agency. Whatever the topic, from 
terrorism and nuclear capabilities to the future of Afghanistan 
and Iraq, policymakers must have unvarnished analytic 
judgments. Your job will be to make sure that the CIA delivers 
these.
    There's growing demand for intelligence on nation-states, 
threats like terrorism, proliferation and cyber attacks, and 
for keeping a finger on the pulse of the world in as many 
places as possible. While often overlooked and under-resourced, 
this last point proved critical this year as events in the 
Middle East unfolded.
    While all of these challenges and ones we don't yet 
anticipate will have your attention, the threat from terrorism 
will be your main focus at the CIA. The successful strike on 
bin Laden removed al-Qa'ida's leader, but not the threat from 
terrorism. In my view, AQAP in Yemen presents the biggest 
threat to the homeland and I urge you to make your primary 
focus the dismantling of that group before they are able to 
strike us successfully.
    I would also urge you to look closely at the intelligence 
on the detainees held at Guantanamo. Numerous former detainees 
have joined AQAP and other terrorist groups. You have commented 
publicly that you believe it is appropriate to close Guantanamo 
``in a responsible manner.'' With a recidivism rate now over 25 
percent, I'd be interested to know whether you still think that 
is possible and, if so, how you think it can be done 
responsibly.
    In addition to my concerns about the transfer of dangerous 
detainees, it seems the focus on closing detention facilities 
has left us with few realistic options for detaining terrorists 
captured outside of Afghanistan. You and I, in fact, have had a 
conversation about that.
    As we draw down in Afghanistan, we will have nowhere to 
detain terrorists. In many press stories you read that the U.S. 
is not trying very hard to capture terrorists. Instead, we are 
killing them. But we know that capturing terrorists is one of 
the best ways to get actionable real-time intelligence to 
prevent future threats.
    We clearly need better-defined detention and interrogation 
policies. And I'll be interested in your views on this and the 
appropriate role for the CIA to play in these areas in the 
future.
    You will face many other challenges in this new assignment, 
and I urge you to speak with Director Panetta about his 
experiences, practices and priorities while leading the CIA. He 
set some very good precedents for dealing with this Committee 
in an open and cooperative manner, and I hope you will continue 
this relationship in much the same way, and I know you will.
    Director Panetta has also been a fierce advocate for the 
men and women of the CIA. This was evident early on when he 
criticized a decision by the Department of Justice to reopen 
the investigation of CIA employees involved in the 
interrogation of high-value detainees. Unfortunately, that 
investigation remains ongoing. I feel very strongly that years 
of investigating these counterterrorism professionals hurts the 
mission and it is, frankly, unfair and unnecessary when the 
career professionals in the Department of Justice in the 
previous administration found no reason to prosecute anyone.
    I know you will stand by your employees on this issue, just 
as I know you stand by our military men and women under your 
charge today.
    General, I've had the privilege of engaging you in-theater 
and out-of-theater on many occasions. You're the epitome, in my 
opinion, of what a leader should be all about, as you've done a 
great job of leading our men and women in uniform. I'm asked 
quite often, as are all of us, what do you think should happen 
in Afghanistan? And my first response is, ``Well, whatever 
General Petraeus says, that's the direction in which we ought 
to go.''
    That's the kind of respect I have for you, and I look 
forward to a continued very close relationship as you assume 
the duties at the CIA.
    Thank you, Madam Chair.
    Chairman Feinstein. Thank you very much, Mr. Vice Chairman.
    It is now my privilege to recognize the Chairman of the 
Homeland Security Committee, the distinguished Senator from the 
state of Connecticut, Joe Lieberman. We're delighted to have 
you here, Mr. Chairman. Thank you very much. If you'd like to 
make your remarks?

 STATEMENT OF THE HONORABLE JOE LIEBERMAN, A U.S. SENATOR FROM 
                    THE STATE OF CONNECTICUT

    Senator Lieberman. Thank you very much, Chairman Feinstein, 
Senator Chambliss, members of the Committee, colleagues and 
friends.
    I am truly honored to have been asked to appear before you 
this afternoon to introduce President Obama's nominee to be the 
next Director of the Central Intelligence Agency, General David 
Petraeus.
    Madam Chair, as you indicated earlier, in a literal sense, 
General Petraeus needs no introduction. So I want to take just 
a few moments to describe what I believe Dave Petraeus has 
meant to our country and why I am confident he will be a superb 
Director of the CIA.
    General David Petraeus is the most distinguished general 
officer of the United States armed forces of his generation. 
And his generation contains a number of very impressive general 
officers. He is a true American hero who has twice been called 
upon by our commander-in-chief to assume leadership of a 
faltering war effort, and twice he not only answered that call, 
but led our forces out of the jaws of defeat onto the path to 
victory. To my knowledge, no one else in American history 
shares that record with Dave Petraeus.
    At a moment when cynicism too often infuses our national 
politics and partisanship too often affects national security, 
General Petraeus has won the confidence, gratitude and respect 
of the American people--Democrats, Republicans and, yes, 
independents--yes, especially independents.
    While commanding our extraordinary troops in wars that have 
divided our country, General Petraeus has inspired and united 
our American family. At a moment when too many of our fellow 
citizens fear that America's best days are behind us, Dave 
Petraeus' life and leadership have been a reminder that America 
is still a land of heroes and that individually and as a 
nation, we are still capable of greatness.
    Our debt of national gratitude to the Petraeus family 
extends beyond Dave, beginning with his wife, remarkable wife 
Holly. As you've indicated, Madam Chairman and Senator 
Chambliss, Holly Petraeus shares her husband's strength of 
character, intelligence and devotion to the cause of public 
service. As you know, she is currently leading a noble mission 
of her own, protecting our military families from exploitive 
and manipulative lending practices.
    By my rough calculations, General Petraeus has spent more 
than twice as many months deployed in Iraq and Afghanistan over 
the last eight years as he has back home in the United States. 
Throughout all that time, Holly has remained steadfastly 
supportive of her husband's service to our country, and I might 
add, supportive and protective of their gifted children.
    So today, I know we all want to say thank you, Holly 
Petraeus.
    General Petraeus' background and accomplishments would make 
him a superb candidate for any of the top national security 
positions in the United States government. But there are 
special set of reasons why I believe he will make a truly 
superb Director of the CIA, particularly at this time of war.
    First, General Petraeus is someone whose very name inspires 
the trust and confidence of America's friends and the fear and 
anxiety of America's enemies. As our commander-in-chief in 
Iraq, then at CENTCOM and now in Afghanistan, he has stood at 
the epicenter of some of our toughest, most intensive and most 
effective counterterrorism operations. General Petraeus knows 
our enemies.
    At the same time, he has also built very close personal 
relationships with our partners and allies in the Middle East, 
South Asia, the Euro-Atlantic community and around the world.
    Dave has proven himself to be a capable leader of 
organizations that are even larger than the CIA. And because, 
as you said, Madam Chair, he is not just a soldier, but a 
scholar as well, having earned a Ph.D. at Princeton, he is very 
well suited to oversee and demand the highest standards in the 
critically important analysis done by so many who work at the 
CIA.
    After all he has done, General Petraeus certainly would 
have been well justified at this point in his career to seek a 
quiet personal retirement. But, fortunately for the rest of us, 
service to a cause larger than himself is General David 
Petraeus' creed and his personal destiny.
    The brave and skillful men and women of the Central 
Intelligence Agency will be in very good hands when he is given 
the opportunity to be their leader, and all Americans will be 
fortunate, indeed, and safer when General Petraeus is at the 
helm there. And that is why I feel so personally honored now to 
present to this Committee General David Petraeus.
    Chairman Feinstein. Thank you very much, Mr. Chairman. We 
very much appreciate your being here. We would welcome you to 
stay, if you'd like, or I know you have other things as well, 
so it's very much your choice. But thank you very much.
    General Petraeus, we're delighted to hear from you, if 
you'd like to proceed.

  STATEMENT OF GENERAL DAVID H. PETRAEUS, DIRECTOR-DESIGNATE, 
                  CENTRAL INTELLIGENCE AGENCY

    General Petraeus. Well, thank you very much, Madam 
Chairman, Mr. Vice Chairman. I appreciate the opportunity to 
appear before you this afternoon.
    I'd like to thank Senator Lieberman for his very kind 
introduction. I have, of course, had considerable contact over 
the past 10 years with Senator Lieberman in his capacity as a 
senior member of the Senate Armed Services Committee, and I 
might add, also as one of the so-called three amigos.
    Throughout that time, his support of and abiding concern 
for our troopers and their families have been extraordinary. 
Senator Lieberman is a true patriot and statesman who has 
served our country magnificently, and I know that he will be 
sorely missed by his colleagues and his constituents when he 
hangs up his Senate cleats in January 2013 after 24 years of 
service on Capitol Hill.
    Thank you, Senator.
    Thanks also for your kind words about my wife, Holly, here 
with me today. As you've noted, Holly is no stranger to public 
service. Indeed, she is an Army daughter, an Army wife, an Army 
mother, and an advocate for military families.
    As was noted, earlier this year she left the office she 
established some six years ago at the Better Business Bureau to 
become an Assistant Director of the new Consumer Financial 
Protection Bureau, responsible for the Office of Servicemember 
Affairs.
    Holly was recently described as being bright, nice, small 
and a pit bull, someone you want in your corner. I've been 
blessed to have had her in my corner for some 37 years and 23 
moves, and I appreciate the opportunity this afternoon to 
recognize her publicly.
    While it is, needless to say, a tremendous honor to have 
been nominated by the President to serve as the next Director 
of the Central Intelligence Agency, I've worked very closely 
with members of the Agency over the last decade in particular, 
and I have the highest regard for them and for the Agency as an 
institution. If confirmed, it will be a true privilege to serve 
with them and to continue to contribute to the important 
endeavors to which so many Americans and our coalition partners 
have given so much in recent years.
    Up front this afternoon I thought it might be useful to 
address a few of the concerns that various pundits have offered 
about an individual with my background becoming CIA Director. 
Some observers have, for example, questioned whether I will be 
able to grade my own work--that is, to ensure that my 
involvement in Afghanistan, Iraq or other endeavors will not 
color the Agency's analysis of those efforts.
    Let me reassure you on this issue. Clearly, I have views on 
the efforts in which I've been engaged. I've shared them in the 
past with the Agency's analysts and I'll do so in the future. 
However, if confirmed, when I am in the Situation Room with the 
President, I will strive to present the Agency position.
    I will also remain keenly aware that I am the leader of an 
intelligence agency, not a policymaker. In truth, my goal in 
uniform has always been to convey the most forthright and 
accurate picture possible.
    I have, to be sure, offered more positive assessments than 
the intelligence community did on two important occasions: in 
September 2007 on Iraq and in December 2010 on Afghanistan. In 
each case, my team and I felt that the situation had changed 
significantly following the intelligence community assessment 
cutoff date, typically some six to eight weeks prior to the 
date of the assessment being reviewed by policymakers. In view 
of that, we sought to provide our assessment and more up-to-
date analysis.
    In two other cases, those of the assessments on Iraq in 
April 2008 and March 2009, I provided less positive assessments 
than those put forward by the intelligence community, which, 
again, stopped the clock for analysis purposes a good bit prior 
to the date that we provided our assessment. My view in those 
two cases was that the assessment should have been more 
cautious and more qualified, and that is what I offered.
    In short, I have sought to provide the most accurate view 
possible. My goal has been to speak truth to power, and I will 
strive to do that as Director of the CIA, if confirmed.
    There have also been concerns voiced over militarization of 
the intelligence community in general and the CIA in 
particular. One reason I will retire before assuming the 
directorship, if confirmed, is to allay such concerns.
    Beyond that, I have no plans to bring my military brain 
trust with me to the Agency. There is no shortage of impressive 
individuals at the Agency, and I look forward to interacting 
with them and populating my office with them. If confirmed, I 
will, in short, get out of my vehicle alone on the day that I 
report to Langley.
    Finally, some observers have suggested that someone who has 
had six commands in a row as a general officer might find the 
relative flatness of the Agency's organization unsettling. I 
would remind such individuals that I was, as was earlier noted, 
privileged to have an academic period in my background and that 
I have long enjoyed vigorous debate and discussion.
    Moreover, I have repeatedly used red teams, outside 
advisers, directed telescopes and back-channel contacts with 
individuals well down in the organizations I've been privileged 
to command.
    A practice I used in Iraq and Afghanistan, for example, was 
meeting with groups of company commanders while on battlefield 
circulations, and I have also corresponded by e-mail with 
innumerable young commissioned and noncommissioned officers as 
well.
    In short, I will not only be comfortable with the lack of 
rigid hierarchy at the Agency, I will promote appropriate 
flatness of the Agency's organization, while recognizing that 
there does have to be some hierarchy and that at a certain 
point decisions have to be made, analyses have to be finalized 
and judgments have to be rendered.
    I would also like to offer a few observations about how I 
see the Agency, observations that benefit from discussions with 
the Agency's current leadership team, former members of the 
Agency, including virtually all former Directors and a number 
of senior leaders, and of course with Director Panetta.
    And here, if I could, I would like to salute Director 
Panetta's principled, forthright leadership of the Agency over 
the past two and a half years. Indeed, Leon Panetta did an 
absolutely magnificent job at the helm of the Agency and it was 
a pleasure to work with him while I served as commander of U.S. 
Central Command and as the commander in Afghanistan.
    In assessing the organization, it is important that I 
recognize that the Agency is its people. Indeed, it is blessed 
with thousands of individuals who truly are national assets, 
quiet professionals and unsung heroes who go about their work 
silently and without public recognition. They are the ultimate 
selfless servants of our nation, individuals with extraordinary 
expertise, initiative, integrity and courage in the face of 
adversity and physical danger.
    Needless to say, if confirmed, I will work tirelessly to 
help attract the very best people to the Agency, to ensure that 
those hired provide the diversity needed for the areas in which 
we need to perform missions, to ensure that we strive to 
develop them and invest in them to the maximum extent possible, 
and to work to retain them for as long as is possible.
    The Agency is, of course, but one of 16 elements that 
comprise the intelligence community. And while it may be the 
most prominent and well known, it is nonetheless part of a 
team, and collectively it has to be a team player.
    Moreover, it is critical not only that the leaders of 
Agency elements work well with their partners in the other 
organizations, it is also critical that the Director work 
closely and effectively with the DNI.
    I have known DNI Jim Clapper for a number of years and 
worked with him in his current capacity and when he was the 
Under Secretary of Defense for Intelligence as well. We have 
worked well together in the past, and we have discussed the 
imperative of continuing to do likewise if I am confirmed as 
the next Director of the CIA.
    I believe I understand his role as the leader of the 
intelligence community, and I understand the relationship the 
D/CIA should have with the DNI.
    If confirmed, I also look forward to working closely 
together with the leaders of the other agencies of the 
intelligence community. I have, in fact, soldiered with many of 
them over the past decade while deployed for a year in the 
Balkans, during some four years in Iraq, as the commander of 
U.S. Central Command, and of course, over the past year in my 
present position in Afghanistan.
    I am also keenly aware of the need to maintain close ties 
with Congress. By all reports, the Agency has done an admirable 
job under Director Panetta in this regard, and I know that 
keeping the Committee fully and currently informed is 
imperative.
    If confirmed, I will keep the Agency on the trajectory it 
has been following in this regard under Director Panetta. 
Indeed, I look forward to furthering the relationship, indeed 
the partnership, that was built with Congress on his watch.
    With respect to additional organizational issues, many I've 
consulted since my nomination have emphasized the need to 
continue to improve the development of agency information 
systems that enable efficient sharing of information, and also 
to continue the development of tools and applications that help 
with analysis. I'll focus on such areas, if confirmed, and seek 
congressional assistance, if required.
    Related to that, I understand that the effort to reduce 
internal Agency stovepipes needs to continue. There reportedly 
has been considerable improvement in this area in recent years. 
However, additional attention is reportedly warranted to work 
the tensions between the need to protect information and the 
need to share it.
    On a related note, I will also strongly support efforts to 
integrate analysts, all disciplines of intelligence, and 
operators. In fact, the various centers of the Agency, such as 
the ones devoted to counterterrorism, counterproliferation, and 
crime and narcotics, among others, are good examples of such 
integration. If confirmed, I will support and reinforce such 
approaches.
    Other issues in the organizational arena deserving 
attention are the need to maintain sensitivity to the 
counterintelligence threat, improve cyber security, upgrade 
leadership training for supervisors, continue the expansion of 
language skills, and strengthen the lessons-learned process, 
among others. I will examine each of these areas closely, if 
confirmed, and support appropriate initiatives in them.
    The Committee knows well the regional and functional issues 
on which the Agency needs to focus. Obviously, the Agency is 
heavily engaged in the front lines in the global fight against 
violent extremists. There has, needless to say, been important 
progress against al-Qa'ida in recent months in particular, and 
I will ensure that we maintain the relentless pressure that has 
enabled such progress.
    Indeed, I have worked closely with various Agency elements 
in recent years in this campaign and, if confirmed, I will 
support continuation of the superb cooperation between Agency 
assets and other intelligence community elements, with the 
Joint Special Operations Command and other military commands 
and with relevant elements of the interagency.
    Needless to say, support for the ongoing efforts in 
Afghanistan and Pakistan, as well as for missions in other 
locations, such as Yemen, Iraq, and parts of Africa, will 
remain critical.
    The Agency is, of course, specifically charged with the 
conduct of covert operations. These operations are of enormous 
importance to our country. And, if confirmed, I will devote 
considerable attention to ensuring that such activities are 
properly conducted, resourced and coordinated.
    It is also important that the Agency, while staying focused 
on supporting our ongoing wars, not be totally captured by 
these efforts. While contributing to such efforts to the 
utmost, the Agency nonetheless also has to maintain a broad 
global perspective, one that is constantly searching for new 
threats and opportunities--the next developments in the Arab 
spring, the evolution in capabilities of various state and 
nonstate actors, the development of China and other emerging 
global powers, and the possible proliferation of weapons of 
mass destruction.
    Of particular note as well are cyber threats that have 
emerged in recent years. I share the concerns that many hold 
about cyber security and, if confirmed, I will ensure that the 
Agency continues to work closely with intelligence community 
partners to identify and counter risks, threats and adversaries 
from issues within our networks to threats from outside 
attackers.
    Related to this, and in view of the Agency's responsibility 
for conducting and coordinating human intelligence collection, 
I will also, if confirmed, examine progress and collection on 
the so-called hard targets and inventory the status of 
initiatives against them, aligning our efforts as required.
    Finally, I also recognize that it will be critical to 
ensure adequate resources for appropriate investment in Agency 
infrastructure, science and technology, and other assets, while 
also striving to be good stewards of our nation's tax dollars 
and doing our share to help our country deal with challenging 
fiscal realities.
    If confirmed, I will focus intently on those imperatives, 
as well, noting that I will also not hesitate to seek 
additional resources that may be needed as emerging missions 
and tasks require.
    The Central Intelligence Agency is at the forefront of the 
efforts to identify and counter the threats to our nation's 
securities and interests. It plays a central role in many of 
our country's most important endeavors.
    If confirmed as the Agency's next Director, I will do all 
that is humanly possible to ensure that the Agency is 
relentless in pursuit of intelligence needed by our country's 
leaders, our military, our diplomats, and, indeed, our own 
covert operators.
    It would, in short, be an enormous privilege to be the 
Agency's Director and to serve with, represent, lead and be an 
advocate for Agency members, individuals with world-class 
knowledge of other countries and cultures, with cutting edge 
technical expertise, with extraordinary courage, initiative and 
commitment, and with no quest for acclaim or public 
recognition.
    The professionals of the Agency are our country's best and 
brightest, men and women who voluntarily undertake some of the 
most difficult tasks for our nation, men and women for whom 
integrity and analysis is the watch word.
    I have served closely with many of them since 9/11, and I 
cannot say enough about them and the sacrifices they and their 
families make for our country. Serving as their Director would 
be a tremendous honor, and again, a tremendous privilege.
    Thank you very much.
    [The prepared statement of General Petraeus follows:]
    [GRAPHIC] [TIFF OMITTED] 72743.001
    
    [GRAPHIC] [TIFF OMITTED] 72743.002
    
    [GRAPHIC] [TIFF OMITTED] 72743.003
    
    [GRAPHIC] [TIFF OMITTED] 72743.004
    
    [GRAPHIC] [TIFF OMITTED] 72743.005
    
    Chairman Feinstein. Thank you very much, General Petraeus. 
Now come the pro forma five questions, if you just answer yes 
or no, please.
    Do you agree to appear before the Committee here or in 
other venues when invited?
    General Petraeus. Yes, I do.
    Chairman Feinstein. Do you agree to send officials from the 
CIA and designated staff when invited?
    General Petraeus. I do.
    Chairman Feinstein. Do you agree to provide documents or 
any other materials requested by the Committee in order for it 
to carry out its oversight and legislative responsibility?
    General Petraeus. Yes, I do.
    Chairman Feinstein. Will you ensure that the CIA and its 
officials provide such material to the Committee when 
requested?
    General Petraeus. I will.
    Chairman Feinstein. Do you agree to inform and fully brief 
to the fullest extent possible all members of this Committee of 
intelligence activities and covert actions, rather than only 
the Chairman and Vice Chairman?
    General Petraeus. Yes, I do.
    Chairman Feinstein. Thank you very much, General.
    I know this is not the subject, but because of President 
Obama's announcement last night, I'd like to put that behind us 
and then go on to other things.
    When we talked, you mentioned that you had presented to the 
President certain options, and we didn't discuss what they 
were.
    I would just like to ask this question: How do you view the 
President's decision with respect to bringing home certain 
troops and maintaining others for the rest of the time prior to 
2014?
    General Petraeus. If I could, Madam Chairman, perhaps I 
could just walk through the process, because it was quite a 
substantial one, although in a brief period of time, included 
three meetings.
    After the first meeting, I was given a homework assignment, 
which I answered by the second meeting, and then the third 
meeting was the one in which the President ultimately reached a 
decision.
    The responsibility of a combat commander in that kind of 
situation is to provide options to the President to implement 
his stated policy, and that's what I did.
    Associated with each of those options was an assessment of 
risk, the risk being assessed in this case from my perspective, 
the risk having to do with the ability to achieve objectives of 
the military campaign plan, acknowledging that at every level 
of the chain of command above me there are additional 
considerations and that each person above me, all the way up to 
and including the President, has a broader purview and has 
broader considerations that are brought to bear, with the 
President alone in the position of evaluating all of those 
different considerations, including, certainly, those of the 
commander on the ground, but also many others as well, in 
reaching his decision.
    I provided such options. I provided assessments of risk. I 
provided recommendations. We discussed all of this, again at 
considerable length.
    The President then made a decision. The commander in chief 
has decided. And it is then the responsibility, needless to 
say, of those in uniform to salute smartly and to do everything 
humanly possible to execute it.
    Now, as Chairman Mullen, Admiral Mullen, stated today 
before the House Armed Services Committee, the ultimate 
decision was a more aggressive formulation, if you will, in 
terms of the time line, than what we had recommended. Again, 
that is understandable in the sense that there are broader 
considerations beyond just those of a military commander.
    The fact is that there's never been a military commander in 
history who has had all the forces that he would like to have, 
for all the time, with all the money, all the authorities, and 
nowadays with all the bandwidth as well.
    So there is always a process of assessing risk, and it's 
typically, in a case like this, as the Chairman put it today, 
risk at the margin. We're talking about small differences here, 
albeit significant from a military commander point of view.
    And so, that's how I would lay out, again, the process that 
took place, the very good discussion. This was, indeed, 
vigorous. All voices were heard in the Situation Room. And 
ultimately, the decision has been made.
    And with a decision made, obviously I support that and will 
do all that I can during my remaining time as the commander of 
ISAF to implement it, to set up General Allen to do likewise so 
that we can achieve the objectives of the campaign plan. And 
then also, if confirmed as Director of the Central Intelligence 
Agency, to do the same from that position as well.
    Chairman Feinstein. Thank you. I have one minute left.
    I have been concerned by many of President Karzai's 
statements. We all know what this country has done in the last 
ten years, and it seemed to me to be the development of an 
adversarial relationship.
    How do you view his recent statements?
    General Petraeus. Well, first of all, let me just say that 
there have been times when--first of all, we have not always 
seen issues the same way, and we have worked very hard to 
resolve such situations.
    Secondly, there have been times where we think that perhaps 
communication to domestic audiences led to some of the kinds of 
statements that we have heard, which I think have caused 
legitimate concern among some who have heard those, and that is 
very understandable.
    I should note that I have sat down with President Karzai on 
innumerable occasions. People ask what's the relationship like, 
and I say that it is a productive, it is a forthright 
relationship, it is one in which, again, we do not always see 
issues from the same perspective initially, but typically, when 
we have batted these around, we have come to mutually 
acceptable solutions.
    Secretary Gates has observed, I think rightly, that there 
have been times that we have not listened closely enough to 
President Karzai. I think this is an important element of the 
relationship, that at times we need to think about walking a 
mile or a kilometer in his shoes in the Hindu Kush and to 
understand, again, that perspective and the need to maintain, 
again, this political foundation that is so challenging there, 
but without which he cannot operate.
    So I have a degree of understanding in this case for 
President Karzai, with whom I have partnered over the past 
year, and during which time we have made significant gains on 
the security front in the greater Kabul security area, in 
Helmand province, in Kandahar and in other areas in the face of 
a resilient insurgency.
    We have resolved some of the very important issues that 
have been problematic in the past. The private security 
contractor issue is now on course. We have reduced civilian 
casualties each year. We did it in 2010. They're down. The 
losses due to ISAF or Afghan operations this year are down by 
over 10 percent.
    But that's not good enough, we understand, and we have to 
continue the efforts to do that. We have worked through 
mechanisms where now Afghan forces lead. They don't just 
accompany us, partner us, they lead in nearly 25 percent of the 
night raids, which are very, very important to the overall 
effort, although not the be all and end all, because this 
requires a comprehensive approach that also has to include a 
variety of other elements in this civil-military campaign plan 
that we are executing.
    So, indeed, I think we have to continue the dialogue and 
the partnership. There are times, understandably, I think, 
where there are stresses on that relationship. Addressing those 
is not optional. And that is, indeed, the way that we approach 
that relationship.
    And I work to help the individual who is the elected leader 
of a sovereign country and is trying to reach the same kinds of 
goals that we have for his land there in the Hindu Kush.
    Chairman Feinstein. Thank you very much.
    General Petraeus. Thank you.
    Chairman Feinstein. Mr. Vice Chairman.
    Vice Chairman Chambliss. Thanks, Madam Chairman.
    General Petraeus, in listening to the President last night 
I was somewhat disappointed with the scale of the drawdown, 
particularly in the short term. And the reason that I was 
disappointed is because I have visited with you on any number 
of occasions where you've been very attentive to making sure 
that we understood what your goals were in Afghanistan, 
particularly with the now halfway-complete surge from a time 
line standpoint. And you often talked about needing to make 
gains in Helmand and Kandahar provinces, as you just talked 
about, and ultimately making gains in the eastern part of 
Afghanistan.
    As I look back at your testimony in June of 2010, just 
after the President had made his West Point speech, you talked 
about him giving two messages in that speech, one of commitment 
and one of urgency. And I want to quote you. You said, ``The 
urgency was the July 2011 piece--noting that--what happens in 
July 2011 is a beginning of a process for transition, that it's 
condition-based and the beginning of a process of responsible 
drawdown of U.S. forces.''
    You also said in that testimony that, ``As we embark on the 
process of transition, we should keep in mind the imperative of 
ensuring that the transition actions we take will be 
irreversible. We'll get one shot at transition and we need to 
get it right.''
    Now, the reason that I'm concerned about what the President 
said last night is that I know you've made gains in the south, 
I know you've made some gains in the east, and I know that you 
have some additional plans for moving more aggressively in the 
east.
    And I'm concerned because if we are now talking about 
pulling down 10,000, or a third of the troops by the end of 
this year that are part of the surge and the balance of them by 
the end of next summer, before even the fighting season ends 
next year, what is the risk of losing those gains that you 
talked about are reversible but need to be irreversible in your 
testimony back in June of last year?
    General Petraeus. Let me just, Mr. Vice Chairman, mention 
that, first of all, transition will begin this summer. It 
begins next month, in fact, as you know. It will be conducted 
in seven different locations, three provinces, one of which is 
Kabul, less one district, and then four different municipal 
districts.
    As I said, it will begin this summer and it will include a 
substantial number of Afghan citizens. It's nearly 25 percent 
of the population.
    Now, the fact is that in each of these locations transition 
essentially already has taken place. This has been ongoing over 
a period of time.
    Strikingly, Lashkar Gah in Helmand province, the capital, 
the municipal district, is going to transition, and this is 
made possible because over the course of time, indeed, ISAF 
forces have thinned out and Afghan forces have very much stood 
up to the point that there are virtually no ISAF forces 
policing the streets there, nor are they in Kabul, I might add.
    Now, we believe very strongly this is certainly the right 
course to take. It was what we recommended. There will be 
another tranche in the fall of transition, another in the 
spring, and another in the fall of next year. And we have an 
eye on that schedule.
    Now, the fact is that we will have our surge forces again, 
certainly 10,000 will come down by the end of this year. We 
have flexibility in determining obviously which forces and when 
they come. There are already some that are coming home without 
replacement, decisions that were already made, and others 
identified. And then we'll shape this and scope it, again based 
on conditions, based on assessments of the mission. And we're 
constantly refining and updating our campaign plan and we'll do 
another round of that, needless to say, with the decision 
having been made.
    But basically, we're taking out 33,000 U.S. forces over the 
course of a 15-month period. It will run to really to I think 
somewhere in that summer, perhaps as late as mid-September or 
so, something like that. During that time, I might add, there 
will be some 70,000 additional Afghan forces added, based on 
our projections.
    So there will be about 50,000 additional Afghan national 
army and Afghan national police. There will also be probably 
some 20,000 or so what are called ``Afghan public protection 
force,'' which are the private security contractors coming 
underneath the control of the Ministry of Interior, a very 
important action that is just beginning now. And then there 
will be some other non-standard elements that are supported by 
various agencies and international elements such as 
counterterrorist pursuit teams under the intelligence service 
and so forth.
    It will be critical that we obviously accelerate this as 
much as we can, something we've always been about doing, so 
that we can indeed do that hand-off as our forces come out of 
locations, as we really thin out, because we're not just going 
to come out and hand off. We'll thin out and indeed hand off to 
Afghan forces.
    Again, throughout this process, we'll be constantly 
examining, assessing conditions. We will provide forthright 
advice. People have always asked me, ``General, if something 
happens that's unexpected or that increases the level of risk 
beyond what you originally provided, will you provide your 
forthright advice?'' In my remaining time, I can assure you 
that will be the case. And, knowing General Allen, who, of 
course, was my deputy at Central Command during my time there, 
I can assure you that he will do the same as well.
    Thank you.
    Chairman Feinstein. Thank you very much, Mr. Vice Chairman.
    We'll go regular order, five-minute rounds.
    Senator Rockefeller.
    Senator Rockefeller. Thank you, Madam Chairman.
    General Petraeus, when we talked, we talked more about the 
nature of the CIA, the evolution of the CIA. And it's 
interesting to me, and you know, you made the statement, ``I'm 
going to get out of the car all by myself.'' You won't have a 
uniform on. You will be, in a sense, a new person to them.
    I say this because I care tremendously about the morale at 
the CIA, about the personnel. I think it's in pretty good shape 
right now because I think Leon Panetta was really good and 
worked at it. He brought two people with him, but no more.
    Other CIA Directors since I've been on this Committee, much 
less in the Senate, I think have been less effective. Some have 
demoralized the CIA. Some have developed sort of a very close 
band of advisers around them to whom they'd turn, but they 
haven't been very good at reaching down to an unexpected 
analyst who gets a phone call all of a sudden, reaching outside 
the usual chain of command.
    It's my impression that, first of all, that you want to be 
a champion for the CIA. That's very important to you. It's also 
my impression that you want to focus on your duties there, and 
you used the phrase in your testimony that you understand that 
you will be commanding a very large agency and you'll be 
involved with public policy, but not necessarily the nation's 
leading discusser of policy on Meet the Press, so to speak.
    In other words, I think the CIA will look at you first, and 
they will be very, very impressed, as obviously everybody is, 
by what you've done. But by the very, very excellence of your 
performance, they will also be nervous because they will be 
receiving as their leader somebody who comes in alone and 
somebody who is kind of a super-star on the military and 
intellectual force side, but who they don't know.
    So my questions to you are the following. One, it is hard 
to walk into a building--you're still General Petraeus--and to 
simply develop a sense of confidence. I believe so strongly in 
the CIA, I think they need the most immediate kind of trust in 
their leader. I would go so far as to say I think that the 
entire operation--it's a very large agency--will turn to a 
better day's work or a less good day's work based upon how they 
see you.
    So my questions are the following. You will take nobody in 
with you, but you will have a strategy as to how you're going 
to make yourself close to the CIA without, in a sense, forcing 
yourself on them, but you will draw them to you. And we 
discussed that in my office, and you had some very interesting 
thoughts and ideas and I wish you would talk about them.
    General Petraeus. Thanks very much, Senator.
    First of all, I agree with you absolutely in your 
assessment of the Agency. As I told you behind closed doors, 
and I'll say here, I wanted this job. This is something that 
was not, you know, a month or two or three in the making. 
Secretary Gates and I discussed this all the way back last 
year.
    I'm taking off the uniform that I've worn proudly for 37 
years to do this job, I think in the right way. I think the 
world of the Agency and its people, having worked very closely 
with them for the past 10 years in particular. And I do, again, 
just feel enormously privileged just to have been nominated to 
lead them.
    You should know on day one after being sworn in, wherever 
that is, I will indeed get out of the vehicle alone. I will go 
to the auditorium. We'll do an all-hands. We'll have folks 
piped in as well. And I will tell them up front right there 
that you all should know that I'm here to recruit you and I 
know that you're here to recruit me.
    I also know that the Director of the National Clandestine 
Service is my case officer. I will seek to reassure them. I'll 
use a lot of the same techniques applied obviously to a 
different organization that I tried to use in the military--
reaching out, reaching down. We talked, for example, about a 
dissent channel. There is a dissent channel. It's called ``ask 
the Director,'' and there are an awful lot of great questions 
that come in for the Director, apparently.
    And I'll stress that they should know that. And beyond 
that, I'll even give them my personal e-mail address, which 
should be readily available, I'm sure, on the system anyway. 
And if it's like the military, there won't be any hesitation in 
the junior ranks in providing unsolicited input to their boss. 
In fact, actually mothers and fathers of American soldiers, 
sailors, airmen, Marines and Coast Guardsmen occasionally take 
advantage of that as well, and I'm delighted to answer them.
    I did discuss today, in fact this morning, with the Deputy 
Director and the Associate Deputy Director--and I appreciate 
your recognition of Mike Morell as a truly superb officer in 
whose hands the Agency will be very well taken care of in the 
interim--both of them long-time veterans of the Agency, and we 
talked about, again, the kinds of strategies that can be 
pursued indeed to embrace the Agency and to show how much I 
believe in them, in the missions that they perform, in their 
enormous contributions to our country's security and interests.
    And there's a whole variety of these. I mean, it even 
starts out by going to the cafeteria a few days a week, and 
some other days inviting groups to your office--the equivalent, 
if you will, of company commander lunches; certainly going out 
to work spaces and visiting them there, rather than summoning 
them to the seventh floor. But indeed, summoning someone to the 
seventh floor because, again, that's an important incentive as 
well.
    So lots and lots of these tactics, techniques and 
procedures, if you will. And I've been given a number of good 
ideas like that and I will certainly seek to implement them. 
But again, I appreciate very much your feeling for the Agency 
because it is one that I share very deeply.
    Senator Rockefeller. And just finally, General Petraeus, 
the idea of redlining, of having people come at you, 
systematically challenging decisions that you are about to 
arrive at or perhaps you have arrived at, as well as just 
picking up the phone and calling some analyst or police officer 
somewhere, either in the building or somewhere else in the 
world, and saying, ``What do you think about this? What do you 
think about that?'' That kind of thing spreads wildly fast.
    General Petraeus. Well, Senator, thanks.
    First of all, I think red-teaming is a very important and 
literally formal red-teaming is an important part, I think, of 
any such organization, something I've sought to do. Also, as I 
mentioned, the idea of directed telescopes, people that are 
actually eyes and ears for you, as well, reaching down into the 
organization to individuals and, indeed, welcoming and saying, 
look, you know, this is not a military chain of command here. 
This is an organization that prides itself on its flatness and 
in the vigor of its discussions and debates.
    And there should not be a case where someone walks out of 
my office and goes down the hall and says, ``Man, I wish I had 
said this or that.'' That should not be the case. And I've got 
to try to create conditions to where people are willing, again 
not only for the Agency to speak truth to power in the 
interagency, but for there to be truth spoken to power on the 
seventh floor of the headquarters, as well.
    Senator Rockefeller. I thank you.
    Chairman Feinstein. Thank you very much, Senator 
Rockefeller.
    Senator Snowe.
    Senator Snowe. Thank you, Madam Chair. And welcome, General 
Petraeus.
    I, too, want to join everyone in congratulating you and to 
express my profound gratitude to you for your more than three 
decades of extraordinary service to this country.
    You're more than simply filling a position at the helm of 
the CIA. You're certainly the man of our times, during this 
pivotal moment in this country and the multifaceted challenges 
that are confronting the Agency as well as this country and the 
fact that you bring a real-world operational experience in the 
backdrop of being an operational commander in both Iraq and 
Afghanistan, as well as command of the U.S. Central Command.
    So I want to congratulate you, and also to say thank you to 
your family, your magnificent wife, Holly, for your 
extraordinary service to this country. Americans owe you a 
tremendous debt of gratitude.
    And so I think that this nomination is an expansion on your 
illustrious career that is well deserved.
    General, I would like to go back to the question of 
Afghanistan, because, obviously, people in this country, 
rightfully--and all the sacrifices that the military families 
and those who have made the ultimate sacrifice, those who have 
been injured during the course of this decade-long war, are 
concerned about, you know, where the future is with respect to 
the ultimate end game strategy, and particularly in light of 
the President's proposed redeployment and surge drawdown.
    In your March testimony before the Senate Armed Services 
Committee, you said that, obviously, we must be ensured that 
Afghanistan does not once again become a sanctuary for al-
Qa'ida.
    General Petraeus. Right.
    Senator Snowe. You said today in your testimony that we 
have made important advances in recent months against al-
Qa'ida.
    But you also said in your testimony back in March that our 
efforts are fragile and reversible. I'm presuming that that is 
on the basis that you need a certain level of troops.
    The President indicated in his speech last night, in 
reference to Pakistan, that they will have to expand their 
capabilities to root out cancer in the violent extremists.
    Irrespective of troop levels and irrespective of 
capabilities ultimately of the Afghan National Army, is it 
possible to end this insurgency without the Pakistanis' 
cooperation, their willingness to take durable, unambiguous 
steps toward eliminating terrorist safe havens?
    I know your predecessor--now Secretary Panetta--said that 
it is one of the most frustrating and complicated relationships 
with Pakistan. So the real key to all of this is that if 
Pakistan doesn't cooperate in eliminating those sanctuaries 
along the porous borders, then will we ever get to a point that 
the situation will not be fragile and reversible?
    General Petraeus. Well, Senator, first of all, thanks for 
your kind words.
    Second, I think it is very important to note what Pakistan 
has done over the course of more than two years now.
    If you remember back around, oh, say 30 months or so ago, 
virtually all of the then-Northwest Frontier Province--now 
Khyber- Pakhtunkhwa, Swat Valley--were controlled by the 
Pakistani Taliban, the Tehrik-i-Taliban Pakistani. Other 
agencies of the Federally Administered Tribal Area were 
controlled by the Tehrik-i-Taliban Pakistani. And it was very 
clear to all in Pakistan--to the political leaders, the 
citizens, the religious leaders and the military leaders--that 
this posed the most pressing existential threat to the very 
existence of the Pakistani state as it existed at that time.
    To their credit, they have conducted very impressive 
counterinsurgency operations in very extreme terrain, again, in 
the former Northwest Frontier Province, to clear Swat Valley 
and associated areas, to clear a number of the agencies in the 
Federally Administered Tribal Areas--not all. And certainly, 
they're in a tough fight in Mohmand Agency right now. And we're 
working hard to coordinate on the other side of the border, 
where they at times are the anvil for our operations in Kunar 
Province and then we are the anvil for their operations in 
Mohmand or in Bajaur Agencies.
    So I think it's very important that we give them credit for 
what they have done and for the enormous number of casualties. 
Thousands of soldiers, thousands of police, and, indeed, 
thousands of civilian have lost their lives to these extremists 
inside Pakistan.
    Now, having said that, there is also very clear recognition 
that more needs to be done, not only against those extremist 
elements that are threatening the security of Pakistan, but 
also against those that are causing problems for neighboring 
countries--Afghanistan foremost among them--and, indeed, posing 
a threat to the entire world with the fact that al-Qa'ida, of 
course, senior leadership is known to be in various locations, 
again in the rugged tribal border areas.
    So there is more that needs to be done.
    In some of these areas, we have been able to coordinate to 
share intelligence and so forth, but in some others, as 
Director Panetta has forthrightly noted, that has not been the 
case, and that is difficult.
    And there's no question that the order of difficulty, the 
magnitude of the difficulty for the effort in Afghanistan is 
greater as a result of the inability to deal with some of those 
very significant threats that reside in places like North 
Waziristan, down in certain areas of Baluchistan and so forth.
    Now, we have got to work this relationship. There are 
hugely important mutual objectives that we need to work 
together to achieve. Clearly, this has been a time when that 
relationship has been fraught for a whole variety of different 
reasons, and we've got to redouble our efforts there, indeed, 
to move forward constructively.
    Now, can we achieve our objectives in Afghanistan? 
Certainly much more difficult if there's not assistance there. 
And in those cases what we have done, actually, is to establish 
layered defenses back from the borders of the agencies in which 
these groups reside most heavily.
    So, for example, in Khowst Province down to the southeast 
of Kabul, which borders North Waziristan, there is quite a 
substantial Afghan defensive element established there.
    Then where you hit the mountains, there's another line of 
defense, then there's another line of defense just at the 
southern end of the two provinces just south of Kabul, the 
Greater Kabul Province area.
    And then within Kabul, Afghan security forces are in the 
lead conducting all operations as the lead elements, including 
some absolutely superb special operations forces which, indeed, 
we do seek to support and enable with certain intelligence 
tools and assets, but which conduct the operations on their own 
pursuant to arrest warrants issued by Afghan authorities.
    So, again, more difficult? Without question. I'm not sure, 
though, that I would say not doable.
    Senator Snowe. Thank you.
    Chairman Feinstein. Thank you very much, Senator Snowe.
    Senator Wyden.
    Senator Wyden. Thank you, Madam Chair.
    And, General, let me join my colleagues in expressing my 
gratitude for your service.
    I also think that what is especially important in the 
Director position is that Senators get the real story, they get 
somebody who's going to be a straight shooter. And I'm 
convinced you're going to do that, and I appreciate that.
    I brought with me a new issue of the Foreign Affairs 
magazine. And they talk about the era of revolt. And they have 
a section with a big caption, ``Why No One Saw It Coming.''
    So what I'd like to do is begin by asking you what you 
believe is reasonable for policymakers to expect the 
intelligence community to be able to anticipate in terms of 
major geopolitical events. I would like to take Arab spring 
really as something of a case study, General.
    Certainly, over the last few months, the reporting that 
we've gotten from the intelligence community has been quite 
good. But in December and January, when the revolutions were 
getting started, the intelligence agencies appeared to be about 
as surprised as everybody else.
    In fact, the Director, Jim Clapper, told the Committee a 
few months ago that the intelligence community first realized 
that the Mubarak regime was going to have trouble hanging on in 
Egypt when the leader of Tunisia stepped down in mid-January.
    Now, obviously, not every surprise or instability can be 
predicted, but I'd like to hear your thoughts about whether 
it's reasonable for policymakers to expect the CIA and other 
intelligence agencies to see events like the Arab revolutions 
coming.
    So my question is, what should policymakers expect you to 
know and when should we expect you to know it?
    General Petraeus. Well, I think, Senator, that it is 
reasonable to expect the intelligence community and the CIA in 
particular to do everything humanly possible to identify new 
developments, emerging developments, like the Arab spring.
    And, as you noted, I think the reporting on that has gotten 
better over time. I don't know whether it is reasonable to 
expect the intelligence community to be able to anticipate that 
the self-immolation of a street vendor would bring down a 
longstanding leader of a country, the dictator of Tunisia. So, 
I have, you know, some degree of understanding there, frankly.
    I think over time that the intelligence, because I have 
followed it--some of it is of countries from my former Central 
Command days in which I retain interest--has improved.
    But the truth is that this really comes to the point that I 
made in my opening statement, and that is that the Agency has 
to, on the one hand, absolutely maintain its focus on 
prosecuting the global war on terror and going after the 
violent extremists who pose such an important threat to our 
country and to our allies and to our troops in a number of 
locations, but we also can't turn that into a game of magnet 
ball, to use the kids' soccer analogy, that everybody can't 
focus on the ball, flock to it, and thereby lose sight of the 
rest of the field.
    Now, I can tell you, having discussed this with Agency 
leaders, that they are keenly aware of the tension, again, 
between this focus that has to be maintained on this very 
important fight, a focus that resulted, of course, in the death 
of Usama bin Laden, but also ensure that the global coverage 
mission continues, so that, indeed, new developments don't end 
up being new surprises to policymakers.
    Senator Wyden. What concerns me, General, and obviously, 
we'll talk more about this, is there is no question that the 
intelligence community saw that ordinary Arab citizens 
generally had a lot of grievances against their respective 
governments, but we understand you don't have to be a CIA 
analyst to figure that out.
    So the question is going to be, and we'll be talking a lot 
about it, since we are spending billions and billions of 
dollars on intelligence, what can we get for that investment so 
that we really get an improved early warning system with 
respect to how serious these matters are?
    And suffice it to say, we'll continue this. I look forward 
to supporting you both in the Committee and on the floor of the 
Senate.
    Thank you, Madam Chair.
    General Petraeus. Thank you.
    Chairman Feinstein. Thank you very much, Senator Wyden.
    Senator Burr.
    Senator Burr. Thank you, Madam Chairman.
    General, many thanks to you and your family for your 
service. A number of us have had the opportunity to see you in 
action in Iraq, in Afghanistan. I think we've seen firsthand 
you don't say things you don't mean.
    Given that you've made a statement numerous times that on 
the day you're sworn in, you're going to get out of your car by 
yourself, given that you were the only named person in bin 
Laden's documents, I hope you will change your mind and take 
somebody with you.
    [Laughter.]
    General Petraeus. There'll be some security. I'm sorry. 
There will be agency-provided security.
    Senator Burr. General, most, if not all, of the finished 
intelligence that our Committee is provided is finished 
analysis, and that's derived from source reports and other raw 
intelligence materials that we don't see and, I might say, we 
don't always need to see.
    In order to assure that our tax dollars are put to good use 
in the intelligence community, would you agree that part of the 
Committee's duty is to conduct successful quality oversight of 
that analysis?
    General Petraeus. Absolutely. And, as I stated, I think 
this is not just about keeping the Committee informed, I think 
it's about a partnership. I know that's the trajectory on which 
Leon Panetta has the Agency, and that's what we want to 
continue to do.
    Senator Burr. Well, I hope as we go forward that you will 
agree that, on a case-by-case basis, that there are times that 
the Committee needs that raw intelligence to make the 
successful judgment on the accuracy of the analytic product 
that we are provided.
    You just alluded to this. I think on 9/11, the relationship 
between our intelligence community, and specifically the House 
and Senate Intelligence Committees, changed. I think it became 
much more transparent, a much more open line of communication 
and we had a common goal. And I believe that this Committee 
should and has been notified as fully as possible on a very 
quick basis on anything that was significant, especially as it 
related to changes in threats.
    Do you agree that this Committee should have that 
information in a very timely fashion and that you would provide 
it?
    General Petraeus. I do.
    Senator Burr. Well, I thank you for that.
    Last thing. We continue to be plagued with a process of 
leaks. Some of that may deal with changes that we need to make 
in clearances, I'm not sure.
    But staff and contractors of the CIA must pass a polygraph 
in order to have access to classified information. 
Congressional staff on the Senate and House oversight 
committees do have access to some of the most sensitive 
intelligence information from the CIA and the IC community.
    Given this access, what's your personal opinion on whether 
oversight Committee staff should be required to meet the same 
minimum polygraph standards of all contractors and staff at 
CIA?
    General Petraeus. Senator, with respect, that's not 
something that I have discussed with the leadership of the 
Agency. And before making a judgment on that before the 
Committee, what I'd like to do really is to discuss it and then 
to come back to you for the record, if I could on that.
    Senator Burr. I appreciate that, and I think I speak for 
the entirety of the Committee. We would like to try to begin to 
make sure that we don't read about the things that we discuss 
in the Intelligence Committee.
    I know the Chairman has a deep interest in that. And any 
suggestions that you might have that help us to plug those 
holes, we would greatly appreciate.
    General Petraeus. Thank you, Senator.
    Senator Burr. Thank you.
    Chairman Feinstein. Thank you very much, Senator Burr.
    Senator Mikulski.
    Senator Mikulski. Thank you, Madam Chair.
    Well, General Petraeus, it's a pleasure to welcome you and 
Mrs. Petraeus here. I want to just echo my thanks for your 
desire for continued service, as my colleagues have said, and 
really, as someone who has a substantial number of military, 
particularly enlisted military, in her state, special kudos to 
Mrs. Petraeus for the way she's protecting them from financial 
predatory behavior.
    I so enjoyed our conversation in my office and listening to 
the testimony here, because as you know, in our conversation, I 
wanted to know not about General Petraeus, who I tremendously 
respect and admire, but who was going to be Mr. Petraeus? Who 
was going to be Dr. Petraeus? And who in the heck was going to 
be Director Petraeus?
    Now, you answered a lot of those questions, both with me 
and Senator Rockefeller's question on being the CEO of CIA, and 
I know we, hopefully, would have time to elaborate on that.
    But we also talked about you as a reformer at CIA, because 
you've certainly been a reformer in the military. So just let 
me get to a reformer question.
    So much of the work of the CIA over the last 10 years has 
been contracted out. There has been just a trend of a 
tremendous use of contractors, many of which to do work of 
dubious quality, and some pretty dirty.
    I wonder if you've had the chance, as you've gone through 
your transition documents, to take a look at the contractor 
issue and do you see the need for reform there, both in terms 
of expenditures of money, functions performed, and also the so-
called dirty work that we didn't want to know too much about?
    General Petraeus. Well, I have. In fact, that is a topic 
I've discussed with the leadership of the Agency. In fact, by 
the way, it came up when I was briefed on the Agency budget.
    And if I might just for the Committee very briefly, I know 
that that budget is classified. I won't get into the numbers. 
But I will tell you that, coming from the military, I kept 
asking, surely there's got to be something more you're not 
telling me about. Because if our country gets the great CIA for 
that amount of budget, it's the best bargain we have as a 
nation.
    Now, having said that, there is no question but that quite 
a substantial component goes for contractors. There is, as you 
know, Senator, an effort already ongoing to reduce the number 
of contractors. And I can tell you that that effort will 
continue, that indeed that thrust is present for a variety of 
different reasons, some of them, if you will, substantive 
reasons, that it should be done, but then also because of the 
fiscal constraints that all elements of government are going to 
have to deal with in the years that lie ahead.
    Senator Mikulski. Well, can I have your word that, as the 
CEO of the CIA, that you will thoroughly scrub this issue of 
the use of contractors? And we need them. I don't dispute the 
need. I'm talking about the appropriate need, value for the 
dollar, and then this whole way, I found, if it was tough 
interrogation, and even questionable tactics, we used that 
through contractors.
    General Petraeus. You have my word.
    Senator Mikulski. Let me go, in my last time here--the job 
of the CIA is both to recruit and deploy spies, but also to 
advise the senior policymakers from the President to the 
Congress on potential threats and emerging threats. That takes 
me to cyber security.
    You mentioned this in page five. I'd like to hear your 
comments on that from the perspective of the CIA. My own view 
is that this is our new enduring war, that coming out of the 
White House the policy has been thin--a lack of urgency, 
cohesiveness and muscle.
    And I wonder, from your perspective, as we work on a more 
muscular, focused, urgent policy, how you see the CIA--and 
without revealing your tactics, your plans--I know it's a 
complicated question in a public forum.
    General Petraeus. Well, actually, I appreciate----
    Senator Mikulski. Could you share with us?
    General Petraeus. I would be happy to, because in 
particular as commander of U.S. Central Command I was one of 
the more vocal proponents of the establishment of the U.S. 
Cyber Command.
    Senator Mikulski. General Alexander.
    General Petraeus. Who happens to be, by the way, a West 
Point classmate of mine, a longtime friend, and in my personal 
pantheon of heroes for the extraordinary expertise that he has 
developed in this area over the years and his leadership of the 
community that carries out a very substantial portion of 
activities in this arena.
    Clearly, the Agency has to focus very intently on the 
defenses against cyber threats, intrusions, and so forth. This 
is where you do have this tension between need to share and 
need to protect. And that is something that indeed I look 
forward to working with the leadership of the Agency.
    But we should also remember that the Agency has a unique 
role to play, as the human intelligence collection agency, if 
you will, first and foremost--that is a charter of the CIA--in 
terms of helping other agencies get into networks. And so I 
indeed look forward to working that role very hard, and in a 
number of different ways, partnering with General Alexander and 
the heroes at NSA and Cyber Command, and the other elements of 
the interagency to assist as is appropriate in that regard, as 
well.
    Senator Mikulski. Well, thank you, General, Mister, Doctor, 
Director Petraeus. And we look forward to working with you. I 
believe we do protect dot-mil. I have really great anxiety 
about protecting dot-gov and dot-com, and look forward to 
working with you.
    Chairman Feinstein. Thank you very much Senator Mikulski.
    Senator Blunt, you're next.
    Senator Blunt. I thank you, Chairman. And, General, thank 
you for being here. I want to join all of my colleagues in 
thanking you and your family for your service.
    You mentioned your West Point colleague, General Alexander. 
I know there are a couple of cadets here today, Doug McFarland 
from Missouri and Travis Griffin from Maine. And whether 
they're here or not, I think your leadership and your example 
are a great role model for those who serve us.
    I think the questions of my colleagues have been good and 
don't need to be repeated. There are a couple of things I would 
like to pursue a little bit.
    One, I just want to mention in my prepared remarks for the 
statement which I'll submit, I made the comment you made about 
how it's critically important--as a matter of fact, I'm going 
to read three sentences from that.
    Congressional oversight is fundamental to who we are and to 
our system of government. By necessity, most of the CIA's 
activities happen out of public view and under cover. That 
cover shouldn't be used by elected officials, however, to hide 
from accountability. Protecting our national security must be a 
partnership. And I think, as Senator Burr said and you 
mentioned, it's been a greater partnership since 9/11 than it 
was before.
    I want to talk a little bit about drones for a minute and 
the use of drones. As I told you in my office a couple of days 
ago, I'm very supportive of the decisions the President made 
regarding Abbottabad. And one of the results of that decision 
was the--well, I--I think we can talk about what I want to talk 
about here.
    General Petraeus. I think generically.
    Senator Blunt. The only thing I was going to say about that 
was, we were able to leave with information in addition to the 
principal goal, which was justice for Usama bin Laden. And what 
I was going to ask you in a general context was, what kind of 
evaluation should go into that decision of how much information 
might be there, whether you use a drone or not, or whether you 
make the decision to try to capture the information, as well as 
eliminate the individual?
    General Petraeus. Well, thanks, Senator. As we discussed, 
in fact, our preference in many of our targeted operations--
again, speaking now for the military, but it has applications 
more broadly--is to capture individuals so that you can indeed 
interrogate them, so that you can develop knowledge about the 
organizations they're a part of, so that you can build, if you 
will, the link diagrams, the architectural chart of these 
organizations, understand the hierarchy, and generally continue 
to pull the string in, as you develop an ever more granular and 
nuanced understanding of these organizations that we are 
seeking to combat.
    There are, however, occasions where we cannot, for a 
variety of different reasons, carry out that kind of operation. 
And in such cases, then, obviously, kinetic activity is a 
course of action, whether by drones or other platforms, for 
that matter, or other kinetic elements. And so that does 
provide an option to us, other than, again, where you cannot 
carry out a capture operation.
    I would note that the experience of the military with 
unmanned aerial vehicles is that the precision is quite 
impressive, that there is a very low incidence of civilian 
casualties in the course of such operations. The warheads, 
actually, tend--in many cases, they're as small as a Hellfire, 
of course, so these are not large munitions.
    And as a result, I think, again, the precision is really 
quite impressive. And it is constantly growing with the 
proliferation of various platforms that enable us to have the 
kind of observation and understanding of the targets before 
they're attacked.
    Senator Blunt. Well, I appreciate that. And I do think a 
sense of what might be available, who else might be there, all 
of those things are things that, as the Director, you need to 
be intimately involved in. And look forward to that leadership 
and other leadership. And like others on this Committee, I 
respect your service, I respect your capacity as an individual 
and look forward to being supportive both during this process 
and if, as I expect will happen, you're Director, to be 
supportive of your actions and to help move forward with that 
partnership that you mentioned, that's such a critical part of 
this part of our security right now.
    General Petraeus. Thank you, Senator.
    Senator Blunt. Thank you.
    Chairman Feinstein. Thank you, Senator Blunt.
    Senator Nelson, you've returned.
    [The prepared statement of Senator Blunt follows:]
    [GRAPHIC] [TIFF OMITTED] 72743.006
    
    [GRAPHIC] [TIFF OMITTED] 72743.007
    
    Senator Nelson. Thank you, Madam Chairman.
    General, I enjoyed talking to you. Amplifying on Senator 
Rockefeller's comments to you, you and I discussed before that 
having come out of a military command structure where so often 
it is of necessity a top-down command structure, that when you 
get into the intelligence community the collaboration structure 
is so much more essential to the effective achieving of the 
mission. And you shared some very interesting thoughts on that 
with me. Would you repeat them for the folks here?
    General Petraeus. Well, thanks, Senator.
    Indeed, this ability to foster collaboration in an 
organization like this--and of course it's not strictly unique 
to the Agency; there are huge elements within the military and 
among those various intelligence elements in which we seek to 
shape that same kind of collaboration and sharing.
    But critical to the Agency, in particular, is the sharing 
of all disciplines of intelligence, the fusion of the products 
of all disciplines, the interaction of operators and analysts, 
and then the collaboration of all members of the intelligence 
community as well. I think that's critical.
    As we discussed, there certainly have been breakthroughs in 
every discipline of intelligence since 9/11, whether it's 
signals intelligence, imagery intelligence, indeed with the 
proliferation of various platforms and unmanned aerial 
vehicles, the ability to digitize human intelligence, indeed, 
even measurement intelligence, because of some of the 
sophisticated packages, balls, optics and so forth that are now 
on some of our platforms.
    So in every discipline there have been breakthroughs. But 
the fact is, the biggest breakthrough is occasionally 
overlooked, and that is the fusion of the products of all of 
these disciplines, and bringing that all together. And that 
fusion is carried out by people. Yes, you can have the great 
applications, computer databases, massive databases that you 
can throw lots of data into, but at the end of the day, the 
digitization of this, the use of it, the employment of it is by 
people.
    And it's by people who work together, who are encouraged to 
do that, who are in centers like the Counterterrorist Center 
and so forth, and with leaders who indeed bring them together 
and ensure that all know that teamwork is not optional.
    Now, again, I think the tone for this, the culture of this 
obviously has to start at the top, as is the case with any 
organization. Every team does, at the end of the day, have a 
coach. And if I'm privileged to be the coach of team CIA, 
indeed I will try to foster that kind of approach. I will try 
to indeed encourage that by my own actions and initiatives, 
including some of those that we discussed with Senator 
Rockefeller earlier--reaching down, reaching out, making 
contact with individuals well down in the organization, 
allowing dissent channels, welcoming red team contributions and 
so forth.
    Senator Nelson. Describe what you think to be the state of 
the fight now with al-Qa'ida, and what do we need to do to make 
sure that al-Qa'ida no longer poses a meaningful threat?
    General Petraeus. Well, we have to maintain that effort, 
again that relentless pressure that has resulted in al-Qa'ida 
being a considerably diminished organization, but noting that 
it still has considerable capability.
    Obviously the loss of the only leader al-Qa'ida had ever 
known, an iconic figure, is a tremendous blow to the 
organization, and to the organization in the franchise, if you 
will, as well.
    And indeed, I think even some of the images that came out 
of that subsequently diminished the perception of Usama bin 
Laden, and the way in which he was living, and so forth, I 
think was contrary to what I would assume many of his followers 
would have expected of him.
    Also, of course, over the course of recent years, the 
number three position in al-Qa'ida was the most hazardous job 
in the world.
    But having said all that, there still is al-Qa'ida senior 
leadership. There is a new leader of al-Qa'ida, reportedly. And 
indeed, there will be efforts to regenerate, to resurrect and 
to continue the efforts to carry out attacks on our homeland 
and on the homelands of some of our allies.
    And as you know, these franchises elsewhere, al-Qa'ida in 
the Arabian Peninsula was a concern of mine even before I left 
Iraq, before even going to Central Command, and indeed over the 
course of years there, there has been increased pressure on 
that, as is reasonably well reported.
    Al-Qa'ida in East Africa sustained a very substantial loss 
very recently here. Every now and then, you actually get a 
break, and that appears to have been the case there with a 
significant leader being killed at a checkpoint.
    Al-Qa'ida in the Maghreb and other parts of Africa also 
bears very careful watching. Al-Qa'ida in Iraq, enormously 
diminished, but still capable of carrying out sensational 
attacks and warrants additional attention.
    Now, the fact here is that we cannot ever get into a game 
of whack a mole. What we have to do is whack all the moles 
simultaneously. We have to pressure that network with our own 
network. And one of the major developments since 9/11 has been 
the establishment of this network, in many cases led by the 
Joint Special Operations Command of the military, but with 
very, very good partnering, again with elements of the Central 
Intelligence Agency, other elements of the intelligence 
community, and in fact with conventional military forces, the 
white SOF as well as the special mission units, and certainly 
with our diplomats and the members of other interagency 
elements, such as the Treasury Department, State Department, 
Department of Homeland Security, who also play very important 
roles in the fight against extremism.
    Senator Nelson. Thank you, Madam Chairman.
    Chairman Feinstein. Thank you, Senator.
    Vice Chairman Chambliss [presiding]. Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    General Petraeus was very good with his time with me, and I 
appreciate you taking time to come to see me and answering my 
questions. So thank you very much.
    Vice Chairman Chambliss. Senator Udall.
    Senator Udall. Senator Risch is a tough act to follow.
    [Laughter.]
    Senator Risch. You never said that before, Senator, but 
I'll take note.
    Senator Udall. One Rocky Mountain westerner to another.
    General, thank you as well for your service, for taking 
time to come and sit down with me. We could have, I know, 
visited for quite a bit longer. But thank you for the 
thoughtful way in which you approach everything you've done for 
our country.
    I know you're a keen observer of institutions and people, 
and in that spirit I know you've also acknowledged in many 
settings that the men and women in uniform that fight for us 
not only have to be warriors in this day and age, but they have 
to be educators, diplomats, small ``d'' democrats, even human 
rights advocates.
    And I know you mentioned that the CIA isn't in the business 
of setting policy per se, but there are a set of values and 
beliefs and principles that you're defending that we all should 
defend.
    So in that context I wanted to talk a little bit about 
torture, and the very important debate we've had in our 
country. One of the things that you've said that's been most 
quoted is, ``Some may argue that we would be more effective if 
we sanctioned torture or other expedient methods to obtain 
information from the enemy. They would be wrong. Beyond the 
basic fact that such actions are illegal, history shows that 
they are also frequently neither useful nor necessary.''
    And then you went on to say,''Whenever we've perhaps taken 
expedient measures, they're turned around and bitten us in the 
backside.''
    Now, there are some who have argued that by not taking 
expedient measures we're deprived of valuable information. Do 
you anticipate your basic views on this issue changing at all 
as you take the helm with the CIA? In other words, do you see 
torture any differently in a CIA context than in a military 
context?
    General Petraeus. Well, Senator, thanks very much. First of 
all, I might add that it was not just the counterinsurgency 
field manual that we oversaw the drafting of when I was a 
three-star commander at the Combined Arms Center headquartered 
at Fort Leavenworth. It was also the Army field manual 
sometimes identified on interrogations. It's actually called 
the ``Human Intelligence Collector Operations.''
    And that field manual, I might add, thanks to Senator 
McCain, who knows something on this subject also, has the force 
of law. Your body gave it the force of law. No one has more 
experience, I don't believe, overseeing the application of that 
field manual and those techniques than I do, having commanded 
in Iraq and in Afghanistan, and in Iraq, when we had some 
27,000 detainees at the highest point, and then in Afghanistan 
where we had far, far fewer, some 2,000 or so.
    My experience is that those interrogation techniques, which 
are judged to be humane, and by the way, we have had the 
International Committee of the Red Cross in all of our detainee 
facilities in Iraq and Afghanistan. We opened up some during my 
time in each of those commands that were conducted by some of 
our special operations forces. And they have been judged as the 
gold standard by that international organization.
    Those techniques, again, do work. We do gain very important 
information. And as I mentioned, that's why in many cases we 
prefer to capture extremists, rather than to kill them. And it 
is a very rare case, in fact, where those techniques do not 
elicit the information that we actually are after in these 
cases.
    So I strongly support the continued exercise of that, 
noting, by the way, that the CIA does not do interrogations and 
does not hold detainees, but again as a general statement. But 
also, I would submit to this body and really to policymakers 
that there may be consideration of a special case. And I have 
talked about this on the record before. I do think there is a 
need at the very least to address the possibility of the so-
called, you know, you have the individual in your hands who you 
know has placed a nuclear device under the Empire State 
Building. It goes off in 30 minutes, he has the codes to turn 
it off.
    I think that is a special case. I think there should be 
discussion of that by policymakers and by Congress. I think 
that it should be thought out ahead of time. There should be a 
process if indeed there is going to be something more than, 
again, the normal techniques employed in such a case. And 
again, I would certainly submit that that would be very helpful 
if that kind of debate could be held and if some resolution 
could be made as to what should be done in a case like that so 
that it is worked out ahead of time, rather than under an 
extraordinary sense of pressure in such a situation.
    Senator Udall. Thank you for that thoughtful answer. I look 
forward in perhaps a more secure classified setting having that 
discussion. And in the meantime, I'll note the ways in which 
you and the military have performed humane interrogations that 
have generated enormous amounts of information, while keeping 
faith with the values that make America and Americans special.
    Thank you.
    General Petraeus. Thanks, Senator.
    Chairman Feinstein [presiding]. Thank you, Senator Udall.
    Senator Rubio.
    Senator Rubio. Thank you, Madam Chair.
    General, first of all, I want to echo all the comments that 
were made here by everyone thanking you for your service to our 
country and looking forward to supporting you both in Committee 
and on the floor in your nomination, and hoping you'll come 
visit Florida like you did from time to time, when you spent 
some significant amount of time there and the mutual friends 
that miss you in the Tampa area.
    I do want to revisit for a moment the President's decision 
on Afghanistan because I think it's relevant to the role that 
you will play in terms of managing our relationship with 
Pakistan. You earlier, in response to a question from the 
chairwoman, said that you had provided the President options 
and that each option had a list of risks. And I guess my 
question was, did you also provide recommendations to the 
President?
    General Petraeus. I did. And I said that earlier, indeed. 
And as I mentioned earlier, as Chairman Mullen noted today as 
well, the decision made by the President was a more aggressive 
formulation, more aggressive timeline in particular, than that 
which we recommended. And I also noted that, again, there are 
broader considerations that guided that, in my view, but I 
don't think it's my place to try to explain in detail what all 
those broad considerations are.
    I don't think it's appropriate for me to go into the 
positions of other people in that room either. And I think that 
you have certainly the right to ask us I think it's termed the 
``personal view'' as we pledge to provide, and I have provided 
that here this afternoon.
    Senator Rubio. Well, my question was really more toward 
the--and I understand the President has a number of factors he 
has to take into account when making this decision. I would 
think your recommendation would be based on military factors. 
You wouldn't be able to happen to share that recommendation 
with us today on exactly what it is you recommended the course 
of action would be from a military perspective?
    General Petraeus. Well, Chairman Mullen has already done 
that today. He talked about having two full fighting seasons, 
rather than, again----
    Senator Rubio. At the surge level.
    General Petraeus [continuing]. Well into it. Yes, in other 
words, the 33K coming down at the end of the second fighting 
season, roughly in that timeframe there. Now, we do have, as I 
said, 15 months to do this. And again, there was a good 
discussion of this and healthy debate.
    Senator Rubio. I just wanted to kind of add to that by 
asking, the September 2012 date, is there any specific 
significance to that date from a military or practical 
perspective in terms of why that date was chosen, September 
2012?
    General Petraeus. Again, I'm not going to try to provide 
the rationale that individuals used in making the decision. My 
discussion, my input focused on, again, the duration of a 
fighting season, and that's what guided that.
    Senator Rubio. Yes, right, and that's what I'm trying to 
get at, is if the September 2012 a date that had some military 
significance or fighting season significance?
    General Petraeus. Well, it does in that it is a reasonable 
time through the fighting season, to be sure. Right.
    Senator Rubio. Okay. The other question I had is, in light 
of this decision, one of the things we've heard repeatedly is 
that, and obviously it's not the only reason, but one of the 
things that complicates our relationship with Pakistan, and in 
particular managing our relationship with ISI, is this thought 
that from the Pakistani side, so they say, they have doubts 
about America's willingness to stay there and that, in fact, 
they feel like in the past perhaps we've not stuck to our 
commitments in the region and have left them holding the bag, 
and in essence, we encourage them to hedge their bets. 
Obviously, I don't think that explains all the problems here, 
but it's one of the things we keep hearing come up in 
conversations and in media accounts.
    I wanted to get your perspective on how not just the 
President's decision yesterday but in general any decisions 
that we make about transition in Afghanistan, you know, how 
that should be handled and how those numbers, dates, decisions 
that are made, how that impacts that issue and that role and 
that view. And in fact, the question would also apply to 
elements within Afghanistan that have also expressed, you know, 
some of the same ``we need to hedge our bets'' attitude because 
they have questions about America's commitment to the region 
and to the conflicts, but specifically about Pakistan and 
managing that relationship.
    General Petraeus. Well, sure. First of all, I think it's 
very important to recall that the most significant development 
of the past year in a strategic sense with respect to the 
campaign in Afghanistan is the commitment that was made at 
Lisbon this past November for the alliance to remain committed 
to Afghanistan through the end of 2014, by the end of which 
time Afghan forces will be in the lead in security terms 
throughout the country. That was an enormously important moment 
for the effort in Afghanistan.
    Now, implied in that, explicit in that actually, is the 
idea that obviously during that time there's going to be a 
steady drawdown of coalition forces, of ISAF forces, as indeed 
there is a steady increase of Afghan forces. As I noted 
earlier, for example, during the 15-month period that we will 
draw down some 33,000 troops, and at the end of which we'll 
still have 68,000 U.S. troops on the ground, and probably 
another at least 30,000 to 40,000 other non-U.S. ISAF forces, 
during that time that we draw down 33,000, I think there will 
be an increase of some 70,000 Afghan forces.
    Again, this is not just the army and the police that are 
authorized. It is also the Afghan public protection force being 
stood up. It is additional Afghan local police elements that 
will be established and are very, very important because 
they're local defense forces and no one defends his village 
better than the villager.
    So all of that will take place.
    And, indeed, I think the commitment to 2014 remains very 
sound. There will be those, in fact, who will argue that this 
decision solidifies support for that all the way through, 
provides the rationale, and so on.
    Pakistan sees this. I think they saw 2014, and at that time 
I think they realized that the United States and the rest of 
the international community was indeed committed for another, 
you know, still from here now three and a half years.
    And then there is now the discussion of the U.S.-
Afghanistan strategic partnership agreement, or declaration. 
And indeed, there is also discussion of a NATO-Afghanistan 
partnership agreement that would go beyond 2014.
    Countries like Australia, the prime minister has been very 
clear and explicit in her commitment to continuing beyond 2014 
already, as have other countries.
    So I don't think that we face a ``Charlie Wilson's War'' 
kind of scenario here. I don't see us feeling that, okay, you 
know, we got rid of the Soviets, we accomplished this mission 
and now we're out of here.
    I think there is every intention that there be an enduring 
commitment, albeit one that is much less costly over time, that 
is more sustainable in that sense, given the fiscal constraints 
that all of the contributing nations face in Afghanistan, and 
one that increasingly is characterized by Afghans being in the 
lead, and Afghans shouldering more and more of the burden.
    And I have an obligation here, by the way, for our Afghan 
partners, to note to this Committee that Afghan forces right 
now are dying, are being killed in action at a rate that is 
three times the rate of ISAF forces.
    So for anyone to say when will the Afghans start fighting 
and dying for their country, I can tell you that they are doing 
that right now, and indeed we should give them enormous credit 
for being out there, and increasingly shouldering the burdens 
in their country.
    Thanks, Senator. And I will get back to Florida.
    Chairman Feinstein. Thank you very much, Senator Rubio.
    General, we have two ex officio members who are very potent 
members in their own right of a very significant Committee, 
namely the Chairman and Ranking Member of Armed Services.
    And I want you to note their humility. They have sat at the 
end of this row now for approximately two hours. And I think 
it's time----
    Senator McCain. And hated every minute of it.
    General Petraeus. I have been staying hydrated for this 
very minute. I want you to know, when I saw Senator McCain, I 
started drinking water immediately.
    [Laughter.]
    Chairman Feinstein. So I'd like to recognize the Chairman 
of the Armed Services Committee, Senator Levin.
    Senator Levin. Thank you, Madam Chair.
    And thank you, General, for your fabulous service. You've 
been a great commander of our troops. You're a deep thinker in 
terms of strategy and how to deal with challenges we face, 
including these kind of insurgencies. We're all very much in 
your debt, and the country is very much in your debt and that 
of your family as well.
    And, by the way, we're going to have a hearing on General 
Allen next Tuesday, you'll be happy to hear. We hope to get his 
confirmation completed next week.
    I want to pick up the question of Afghanistan, the decision 
the President made last night. You gave a number of reasons 
here today for why you--as I read you, that you are comfortable 
implementing the decision that the President made, whether or 
not it was precisely following your recommendation or not, that 
you do feel comfortable implementing it and supporting it. Is 
that an accurate reading?
    General Petraeus. I would be a bit more qualified, Mr. 
Chairman. And, actually, first, if I could----
    Senator Levin. Yes, put it any way you want.
    General Petraeus. Thanks.
    And, first, look, in turn, I'd like to thank you for your 
great support for our troopers over the years. We've actually 
been through a lot of hearings over those years. And I have 
appreciated those opportunities. And more importantly, I've 
appreciated all that you've done for our men and women in 
uniform, and indeed for their families.
    Senator Levin. Thank you.
    General Petraeus. Sir, what I have said, again, is the 
same, frankly, as what Admiral Mullen said this morning to the 
House Armed Services Committee, that this is a more aggressive 
timeline.
    Now, what that means, in, of course, soldier shorthand, 
commander shorthand, is that that means that we assess that 
there is a greater risk to the accomplishment of the various 
objectives of the campaign plan. It doesn't mean they can't be 
achieved.
    That just means from our perspective, which again is 
admittedly one that does not have some of the broader concerns 
that those above us in the chain of command, and indeed the 
President, has to address, that from our perspective, again, 
that would have been, therefore, preferable.
    Now, what I need to do, frankly, is get back--in fact, I'm 
headed back to Afghanistan first thing tomorrow morning--sit 
down with the staff, work our way through this. We had done 
preliminary planning. This was an option that was indeed 
evaluated.
    But now that you have the final answer, we will go to work 
on how indeed best to implement the policy, how to ensure that 
Afghan forces are positioned to accept the transition, as we 
thin out in certain areas, and they are thickened in certain 
areas.
    Senator Levin. Would you also agree with Admiral Mullen, as 
he put it to the Committee, that the truth is that we would 
have run other kinds of risks by keeping more forces in 
Afghanistan longer--that's his exact words--and we would have 
made it easier for the Karzai administration to increase their 
dependency on us. Those were his words today as well.
    We would have denied the Afghan security forces who've 
grown in capability opportunities to further exercise that 
capability and to lead. And that, in terms of risks, we would 
have signaled to the enemy and to our regional partners that 
the Taliban still possessed strength enough to warrant the full 
measure of our presence. They do not.
    Would you agree with Admiral Mullen on that?
    General Petraeus. I'm not sure I buy every bit of that 
characterization, Chairman. Again, you can certainly say that 
staying longer would reinforce the Taliban narrative that, you 
know, we're not going to go home, except I think, you know, we 
are pulling the forces down, gradually reducing those forces.
    So, again, I would come back, if I could, Chairman, to my 
point, which has to do strictly with the military commander on 
the ground, strictly evaluating, again, the military campaign 
plan, and the awareness of the strategic context and these 
other factors that are out there, and explicit recognition that 
others have to evaluate those factors.
    I cannot do that. Only the President of the United States 
can assess all of the different considerations. And, again, I 
should note that I stated this in the Situation Room, to 
acknowledge that indeed in this process there are broader 
concerns than those of the military commander.
    And as a result, I obviously support the ultimate decision 
of the commander in chief. That is, we take an oath to obey the 
orders of the President of the United States, and we indeed do 
that.
    Senator Levin. And if you couldn't do that consistent with 
that oath, you would resign?
    General Petraeus. Well, I'm not a quitter, Chairman.
    I think that--I've actually had people e-mail me and say 
that. And I actually--this is something that I have thought a 
bit about.
    Senator Levin. I'm sure you have.
    General Petraeus. And I don't think that it is the place 
for a commander actually to consider that kind of step unless 
you are in a very, very dire situation.
    Senator Levin. You don't think----
    General Petraeus. This is an important decision. It is, 
again, a more aggressive approach than the Chairman, General 
Mattis and I would have indeed certainly put forward. But this 
is not something I think where one hangs up the uniform in 
protest or something like that.
    Senator Levin. Just a final part of this----
    General Petraeus. You know, if I could continue, though, 
Chairman, I feel actually quite strongly about this. Our 
troopers don't get to quit. And I don't think that commanders 
should contemplate that, again, as any kind of idle kind of 
action. That would be an extraordinary action, in my view.
    And at the end of the day, this is not about me, it's not 
about an individual commander, it's not about a reputation. 
This is about our country.
    And the best step for our country, with the commander in 
chief having made the decision, is to execute that decision to 
the very best of our ability, to do everything I can during the 
remainder of my time as commander of ISAF to enable General 
Allen then to take the effort forward, and then, if confirmed, 
to be the Director of the Central Intelligence Agency, to do 
everything I can from that position with that great 
organization to support the effort as well.
    Senator Levin. I think that's well put and it's very 
reflective of your character. You are a man of extraordinary 
honor. And we all are in your debt.
    If I could just add one quick additional reason for why the 
conditions on the ground have improved, you mentioned that 
there would be 70,000, approximately, additional Afghan 
security forces you expect in the next 15 months. You've 
indicated that they are capable, and people who don't believe 
that Afghan army is capable of fighting I think will run right 
into your very strong, powerful comment about how many of them 
have died fighting.
    I also want to add that in the last 15 months or so--last 
18 months--there's been over 100,000 additional Afghan forces 
that have been trained, and that that has also changed the 
situation on the ground in a significant way, because now the 
Taliban has to face those additional troops.
    General Petraeus. Absolutely.
    Senator Levin. I thank you.
    And I thank you, Madam Chairman, as well.
    General Petraeus. Thank you again, Chairman.
    Chairman Feinstein. And I thank you, Mr. Chairman. Thank 
you for being here.
    Senator McCain.
    Senator McCain. Thank you, Madam Chairman.
    General, let me add my voice to the chorus of 
congratulations and appreciation of you and your family for 
their incredible and wonderful service to our country. I guess 
you do have a certain sense of relief not having, again, to put 
up with Colonel Graham's presence with you.
    General Petraeus. It's a very, very heavy burden that we 
have had in theater in Iraq, and now in Afghanistan. I thought 
we'd gotten----
    Senator McCain. Your reward will be in heaven for putting 
up with him, and we're indeed proud of his continued presence 
and contributions.
    I guess my question, sir, and I think you've been very 
candid with the Committee, particularly in your previous 
responses to Chairman Levin's comments, I guess one of my 
questions is this. Is it more difficult or less difficult now 
for General Allen to be able to achieve the success of his 
mission in Afghanistan? Does the President's decision make it 
more or less difficult for General Allen to achieve his goal--
the goal or the success of his mission?
    General Petraeus. Well, Senator, first of all, let me also 
in turn thank you for all that you have done for our country 
over the years, including a particularly long tour that you 
served in uniform, and the way that you then used that 
experience I think to help guide us as we sought to learn 
lessons from some experiences early on in the post-9/11 period.
    And as I mentioned earlier, the manual to which you gave 
force of law does prescribe techniques that work. And I 
remember that debate very well. I was, as I said, the commander 
of the Combined Arms Center when that manual was produced, and 
I thought that the way that you guided that debate was truly 
admirable because it was in the face of some degree of 
criticism, as you well know, from some quarters, including some 
of those on your side of the aisle, which made it all the more 
admirable.
    Senator McCain. Thank you.
    General Petraeus. Sir, with respect to the question that 
you posed, again I would like to use this in terms of risk. But 
again you have to keep in mind that there are risks not just at 
the military campaign level, not just in achieving the 
objectives of that campaign. There are risks that involve other 
considerations.
    And in my view--and again, I don't want to get too much 
into the reasoning employed by others--but in my view, it is an 
assessment of those risks, risks having to do with other 
considerations that led to the decision, that are important as 
well.
    And so I actually can't give a direct answer in that regard 
because as a commander on the ground you are aware of these 
other considerations. You are aware of the context in which 
your options, your recommendations are evaluated. And it is, 
again, only those at the very top, only the commander in chief, 
who ultimately, I think, can actually assess those full risks.
    Senator McCain. I appreciate that. I appreciate that. And 
that's the whole structure of our system of government.
    General Petraeus. Yes, sir.
    Senator McCain. And I fully acknowledge that.
    From a pure military standpoint, conditions on the ground 
as they are, the troops coming out before the end of the 
fighting season next summer in order to comply with the 
September pullout, does it make it more difficult for General 
Allen to carry out the pure military aspects of his mission?
    General Petraeus. Well, again this is a more aggressive 
time line than that which the Chairman, General Mattis and I 
put forward. It means that there are, again, further challenges 
by not getting all the way through the fighting season.
    But when you then elevate and consider other factors and 
other considerations, I think at the end of the day that this 
is why the Chairman, I think, gave the assessment that he gave 
earlier today.
    Senator McCain. It doesn't surprise me, but it's 
interesting to note that, according to an article today in the 
New York Times, only hours after Mr. Obama spoke, President 
Nicolas Sarkozy of France said on Thursday he would begin 
drawing down some of the 4,000 French soldiers. The German 
foreign minister, Guido Westerwelle, his country's goal was to 
be able to reduce the number of German troops for the first 
time.
    We're going to see a domino effect here of this 
announcement. No elected leader of our alliance is going to 
tell his people they're staying when the Americans are going. 
Is that of concern to you, sir?
    General Petraeus. Well, I think this is expected, with 
respect. Actually, I talked to the French leadership before, I 
talked to the German leadership, I've talked to other 
countries. Indeed, really it's only one country that had 
already announced; the others were waiting for the 
announcement. But there was no question that those 
announcements were coming.
    Now, the question is, of course, what is the size of their 
reductions, does it come as in the case of the U.K. forces; in 
fact, some of those reductions were support troops who were 
still at Kandahar Airfield, no longer needed and so on.
    But, again, this is an area in which we'll have to look at 
all of that. We will conduct yet another review of the campaign 
plan, something that we do on a fairly regular basis, and 
examine how we may or may not have to relook the battlefield 
geometry, assess the focus of our campaign over time, over the 
course of the 15 months of this drawdown effort, and determine 
the establishment, the increase of Afghan forces that can take 
over in the transition of our forces.
    Senator McCain. Well, we'll be able to discuss it, I'm 
sure, in the future. But I predict to you now that our allies 
will accelerate their reductions and presence in Afghanistan. 
It's only logical for them to do so, which I think exaggerates 
to some degree the difficulties of the challenge of achieving 
our goals.
    Finally, I'd just like to say I would look forward to 
working with you on this ticking time bomb scenario. And I'm 
not sure what the answer is, because I think the person who 
would have to be responsible would be the President of the 
United States, who would then be able to go to the American 
people and say, ``I did it because of the imminent threat to 
security of the country.'' And I'm not exactly sure how we do 
it, but I do agree with you.
    But I would also agree with you and thank you for your 
battlefield experience. And that is, that at no time in the 
Afghan or Iraq conflict has there been a need to torture and 
violate the Geneva Conventions and the things that we as 
Americans stand for and believe in.
    Comment?
    General Petraeus. Well, I couldn't agree with you more, 
sir. As you know, we have been partners in this. There have 
been quotations from this letter that I sent out to our 
troopers when I had a concern at one point in time. It was 
titled ``Live Our Values.'' These are values we have fought 
for, that Americans have died for over the course of decades 
and centuries.
    And, as was noted, there are two good reasons to live our 
values. One is, it's the right thing to do. If someone doesn't 
accept that, it's the expedient thing to do, because it bites 
you in the backside over time if you don't. And, again, I thank 
you for championing that in this body.
    With respect to the ticking time bomb scenario, indeed, I 
actually think--I mean, this could literally be sort of, you 
know, the nuclear football kind of procedure where it is all 
thought through--that there is an authorization, but it has to 
come from the top because something extraordinary is going to 
be done--and this can't be something where we are forcing low-
level individuals to have to make a choice under enormous 
duress.
    I think there has to be a very streamlined process, but I 
think that's something worth discussing and I appreciate your 
willingness to take that on, because that is an issue that has 
to be dealt with, I think, by folks on the Hill and also 
certainly policymakers.
    Chairman Feinstein. Thank you, Senator McCain.
    I have a couple of odds and ends I want to clear up, and 
then we'll do a quick second round.
    We're going to try--and I spoke with the Vice Chairman--try 
and get this nomination confirmed by the Fourth of July, so we 
will have to be very speedy with the questions and the markup. 
And I hope you'll be able to do that.
    General Petraeus. We will do it.
    Chairman Feinstein. Okay. Good.
    The second thing is, you know, listening to Senator McCain 
on the Army field manual, it's easy for us--I've never known 
torture. It's a different thing for someone that has to really 
come out I think where Senator McCain has come out. And I, too, 
and I think every Member appreciates that.
    I just wanted the record to be complete on what has 
happened. The Army field manual does not have the force of law. 
It has the force of executive order.
    General Petraeus. I'm sorry. Thank you.
    Chairman Feinstein. Yes.
    General Petraeus. Right. Correct.
    Chairman Feinstein. I put it in the 2008 intelligence 
authorization bill. That bill was vetoed by the President.
    General Petraeus. Correct.
    Chairman Feinstein. So right now it has the force of 
executive order.
    You know, as I listened to you and the questioners here, 
the thought that occurred to me was you are bringing direct 
street smarts from the theater of war to the intelligence 
community. I think we believe that if we win against 
terrorists, it's going to be because we have good intelligence.
    You are a different nominee than Leon Panetta was. Leon 
brought street smarts with respect to the administration, with 
respect to the House, with respect to how government works. 
This is really a unique situation, I think, where your 
experiences can hopefully improve the gathering of 
intelligence.
    Do you agree with this? And if so, how do you think this 
can be realized?
    General Petraeus. Well, I would certainly hope that that 
will be the case. As was noted earlier, I don't think there 
have been any more avid consumers of intelligence in 
battlefield commands than I have been. We have worked very, 
very closely together to integrate all elements of military 
forces and intelligence elements for common objectives.
    Clearly, I've got an enormous amount to learn about the 
Agency as an institution and an organization and its processes 
and so forth. But again, I'd like to think that the experiences 
that I have had will prove of value at the helm of this 
organization, if confirmed. And I can assure you I'll also have 
the sense to listen to people like Mike Morell and the others 
who lead the various elements of the Agency. In fact, I've 
spent a fair amount of time with them over the course of the 
last week or week-and-a-half already.
    Chairman Feinstein. Thank you.
    The Staff Director gave me a note so that I can clarify 
this Army field manual further. The Army field manual is by 
executive order for the intelligence community. The Detainee 
Treatment Act makes it law for the military service. So there 
is that slight differential there. I think it's good for all of 
us to know that as we go forward.
    General Petraeus. Absolutely. And again, I mean, to us it 
is what we follow, as you know.
    You know, if I could, I also perhaps want to get on the 
record the fact that I mentioned earlier that I not only would 
feel privileged to lead the organization, to be its champion, 
but also to be its advocate. And in that regard, I think that 
it is time to take the rearview mirrors off the bus with 
respect to certain actions out there.
    I don't want to comment on specific Justice cases, but I 
think that at a certain moment in time, especially a moment 
when we do not any longer truly, I think, appreciate the 
context of the post-9/11 period and some actions that were 
taking place under direction. And I, for one, again, as the 
potential leader of the Agency, would like to see us focus 
forward and indeed put some of these actions behind us once and 
for all, and put our workforce at rest with respect to that.
    Chairman Feinstein. Thank you very much. That's very 
helpful.
    My own view is that you're going to be a terrific asset to 
the intelligence community and this Committee really looks 
forward to working with you. I think the closer the 
relationship in terms of the sharing of material and thinking, 
the better we all are, the better our authorization bills are, 
the better the performance of both sectors--the Congress as 
well as the Agency.
    And so this will be, I think for all of us, a very special 
and very unique experience. And we're lucky to have one of our 
very best leading it. I have no doubt that you will be.
    General Petraeus. Thank you, Madam Chairman.
    Chairman Feinstein. Senator Chambliss.
    Vice Chairman Chambliss. Thanks, Madam Chair.
    General, I just want to go back to the issue of detention 
and interrogation because I'm extremely concerned about where 
we are right now with issues like Bagram. What's going to 
happen to all of the detainees at Bagram when we turn Bagram 
over to the Afghans? I am really, really concerned about that. 
I think I know where you stand on that, too.
    Secondly, with respect to the interrogation of detainees, 
irrespective of what techniques we use, we've got to have 
detainees to interrogate. And we've got to make sure that we've 
got facilities in which to hold those detainees. I'm concerned 
about going forward, that if we are still thinking in terms of 
closing Guantanamo, it's been very clear that the American 
people do not want those detainees at Guantanamo transferred to 
U.S. soil. And now, that's the law of the land, they won't be.
    And if we're going to try to house these prisoners 
somewhere other than Guantanamo, I don't know where it's going 
to be. And I don't expect you to be able to give me an answer 
right now on the issue of interrogation of future detainees, 
but it's something that I hope you'll give some thought to 
immediately, because while you're kind of on the board of the 
HIG, the CIA is not a part of the interrogation team. I think 
that's a mistake. And I hope that that policy will be changed 
under your leadership.
    With respect to housing detainees, I would like your 
comment there, particularly at Bagram or Guantanamo.
    General Petraeus. Well, actually I'm very glad you raised 
that because it's literally in a sense the last issue I really 
was eager to get out on the table, having had the opportunity 
to talk about this other one earlier.
    I am on the record, as you know obviously, Vice Chairman, 
as saying that Gitmo should be closed responsibly. This was 
some--back at least two-and-a-half years ago. I think it was 
shortly after taking over Central Command. And it was based on 
the fact that in the Central Command region, the existence of 
Gitmo indeed had considerable antibodies attached to it. There 
was a certain degree of radioactivity.
    Now, to be fair, some of that was because of an association 
with Abu Ghurayb that shouldn't have been drawn, but 
nonetheless these were the kinds of issues that were reality 
for those of us working in the Central Command area at that 
time.
    By the way, I did that before President Obama made that 
statement, so this was not something that was trying to be 
politically correct. This was something that I felt and 
answered on the record.
    Now, the challenge has been, of course, that we have not 
been able to do this in that responsible manner. There 
certainly haven't been any state governors that I'm aware of 
who have raised their hand and said, ``Yes, sure, send all the 
detainees out here.'' And yet there has to be a location for 
these detainees. I agree with you absolutely in that regard.
    And I think we are in a real conundrum right now. I can 
tell you that Afghanistan cannot and should not be a location 
to which detainees taken outside Afghanistan end up being 
located.
    So we are in a very difficult position. And this is, 
together with the issue of the ticking time bomb scenario, I 
think this is the other major issue that needs to be addressed 
by a combination of policymakers and those in Congress, because 
our nation does have to have a place to hold individuals. There 
is a very legitimate concern about the recidivism rate of those 
that have been released to various locations.
    In fact, you'll have seen that there was a jail break in 
Yemen in the last 36 hours or so. I don't yet have the details 
on whether or not there were any Gitmo detainees as part of 
that, but I do have confirmation that some of them were al-
Qa'ida in the Arabian Peninsula figures.
    So, again, this is a very, very serious issue, I think, for 
our country, and it is one I really believe that policymakers 
and Congress need to address on an expeditious basis.
    Vice Chairman Chambliss. Well, we'll look forward to 
working with you, because I, too, agree that that is at the top 
of our priority list moving forward. And Yemen is a pretty good 
example of why that recidivism rate is at 25 percent and maybe 
even higher than that, I don't know, because there is virtually 
no supervision of those former Gitmo detainees in Yemen.
    Well, thank you very much, General, and we look forward to 
seeing your confirmation process move quickly.
    General Petraeus. Thanks, Mr. Vice Chair.
    Chairman Feinstein. Thank you very much.
    Senator Wyden.
    Senator Wyden. Thank you, Madam Chair.
    I appreciate the chance to get into just one other area 
with you, General. I think you're aware that we sent you the 
question I'm going to ask you. We sent it to your staff and 
your staff had it. It deals with the fact that I feel very 
strongly that intelligence agencies have to be able to conduct 
secret operations to protect the American people, sources and 
method, but I also feel strongly that our laws, and 
particularly how they're interpreted, the official 
interpretation of how our laws are interpreted, that that has 
to be public.
    So the question that I sent you, and with that essentially 
as my concern, involves the official interpretation of the 
CIA'S authorities. And the State Department's top lawyer, 
Harold Koh, gave a speech last year in March where he laid out 
the administration's official views regarding counterterrorism 
and the use of force, but there seems to be some question about 
whether the speech applies to the entire government or whether 
there is an exception, really an unspoken exception, for the 
intelligence agencies.
    So the question that I sent and I ask now is, did all the 
statements made in that speech regarding the use of force 
against terrorists apply to the CIA?
    General Petraeus. My apologies, Senator, with respect. I 
don't know on that. I know that it was sent over. But this is 
one that I'd like to take for the record, and obviously I'll 
get you the answer, needless to say, before the confirmation 
process is complete, touch wood. So I'll get that to you for 
the record, if I could.
    Senator Wyden. That's very helpful. That was the answer 
I've been hoping for. And, of course, what's key here is that 
it be an unclassified answer, because this is, as I say, a 
question of how the law is being interpreted. I want to make 
sure, and we had discussions about this before, that nothing is 
done in any way that threatens sources and methods and 
collections. And this is about the official interpretation. And 
to have that in an unclassified fashion, that would be very 
helpful by the end of the confirmation process, and I thank 
you.
    Senator Wyden. Thank you, Madam Chair.
    Chairman Feinstein. Thank you very much, Senator Wyden.
    Senator Levin.
    Senator Levin. Thank you, Madam Chairman.
    The New York Times reported this morning that, according to 
military officials, the withdrawal plan outlined by the 
President will result in the curtailment or cancellation of 
plans to shift U.S. troops coming out of southern and 
southwestern Afghanistan to eastern Afghanistan, where Afghan, 
U.S. and coalition forces are fighting insurgents, including 
the Haqqani group. Is that accurate?
    General Petraeus. First of all, I don't have a clue who 
those military sources are, and if they know something I don't 
know. But I'm just the commander of the theater.
    Again, we have not yet done----
    Senator Levin. As far as you know, is that accurate?
    General Petraeus. I don't think so. Again, literally just 
gave guidance to the deputy chief of staff for operations of 
ISAF, who's also dual-hatted as the J3 for the U.S. forces, 
this evening on secure Internet as to how to move forward on 
this. And this is--they're a little bit of the planning process 
if I could, Mr. Chairman.
    Senator Levin. So, if this were true, would you know it?
    General Petraeus. I would certainly hope so. Again, as I 
said, I don't know how to comment on, quote, ``military 
sources.''
    I actually saw that and I was a little bit surprised. This 
is a little bit similar to the military sources, by the way, 
who are also trying to comment on what my options and 
recommendations were going to be, and that was curious because 
there was only one person who knew what those were going to be 
and that was a four-star action officer named Petraeus.
    Senator Levin. Well, if it turns out that is accurate, 
would you let us know?
    General Petraeus. I'll be happy to.
    Actually, let me just clarify, because the plan for the 
east was never that we were going to move massive forces. It's 
more that you're going to move the main effort and enablers. 
And, again, there's not a concept of moving brigades from the 
south to the east. There is a concept of moving the main 
effort, the focus, in other words other resources that enable 
those forces on the ground, and that's how you weight the main 
effort in a campaign like this. This is not a maneuver 
campaign. Perhaps there could be some small elements moved.
    But, again, we have not yet done the latest iteration of 
the refinement of the campaign plan, and it would be premature 
for somebody to try to leak that to the New York Times.
    Senator Levin. Another article in the Times this morning, 
the reporter, quoting himself, I think, made a general 
assertion that the effort to transfer security responsibility 
to the Afghan security forces remains ``elusive'' because 
Afghan troops are ``proving unprepared for the job.'' Can you 
comment on that?
    General Petraeus. I'd be happy to. I mean, we're going to 
transition, as I mentioned, in seven different locations. In 
those locations those Afghan forces, frankly, are already 
performing the bulk of the security tasks, most significantly 
and prominently in Kabul, where, again, all night raids in 
Kabul are led and predominantly manned by Afghan forces. Not 
only do we not do unilateral operations, we don't do even 
partnered operations there. They are all led by Afghan forces 
there, in some cases enabled by ISAF and/or other intelligence 
elements that support them, but we don't do them.
    I might also add that 100 percent--actually, there's a 
small subset we do an occasional kinetic strike--but every 
targeted special operation conducted in Afghanistan, every 
single one, is now partnered with Afghan forces. There are 
Afghan equivalents for our most highly qualified special 
mission units and then there are other elements. There are some 
12,000 Afghan special operations forces now of all different 
categories, and I'm not including the civil order police among 
those.
    Senator Levin. In all those efforts and actions are they 
proving--not all, but are they generally proving prepared for 
the job?
    General Petraeus. They are indeed.
    Now, having said that, there is an unevenness to the police 
in particular that is characteristic of these kinds of 
endeavors. As you'll recall, we faced the same in Iraq. We 
actually faced the same in the Balkans and Haiti and a variety 
of other contingency operations as well.
    But there's a substantial number of good forces there, and 
indeed they have continued to grow and to develop and to prove 
themselves. It's not to say they're all going to step up to the 
plate and hit the ball on the first pitch, but the batting 
average has certainly gone up considerably.
    Senator Levin. And finally, on President Karzai's comment, 
his speech about our being occupiers, I've got to tell you that 
while I agree with you that there are times when we have not 
listened adequately to President Karzai--I agree with that--on 
this occasion I was absolutely dismayed because I thought that 
comment of his, talking about us as occupiers, plays right into 
the hands of a common enemy, the Taliban.
    And I would hope that in your determination to speak truth 
to power, which is your commitment here as the new CIA 
Director, that you also will speak truth to the President of 
Afghanistan, President Karzai, that that comment and that 
speech of his, as Eikenberry said, was really totally 
unacceptable and dismaying and plays into the hands of our 
common enemy.
    General Petraeus. I can assure you, Mr. Chairman, that I 
have always sought, albeit in private and, on many occasions, 
one-on-one, to have very candid and forthright conversations 
with President Karzai.
    Senator Levin. Were you dismayed by that comment?
    General Petraeus. It did cause concern, without question. I 
mean, to have that--even though you understand it's to a 
domestic audience, you can understand some of the pressures of 
some issues that are out there that are of enormous concern to 
our Afghan partners, but at the end of the day, it's not just 
about the Afghan domestic public opinion. There's some domestic 
opinion in the 49 troop-contributing nations, not the least of 
which is right here in the United States.
    Senator Levin. Thank you.
    Thank you, Madam Chair.
    Chairman Feinstein. Thank you very much, Senator.
    I would like to associate myself with your comments, and I 
just want to say to you, General, President Karzai's comments 
had a big impact on me. You know, I come from a state where we 
have a lot of veterans and a lot of people that have lost 
limbs, as do other Senators.
    It's very hard to sustain what has increasingly become an 
unpopular war--because we believe we need to do it if we're 
ever going to stabilize that part of the world and prevent 
terrorism from growing--it's very hard to do that in the face 
of comments like this, and I just had them all pulled and took 
a look at them. And if you look at all of them, they're 
unbelievable--that we use chemical weapons, that we are 
occupiers, that we may use a nuclear bomb.
    I mean, it's provocative, they're insulting and they're 
very misleading.
    So, you know, we have to appropriate the money for the war. 
I happen to be on the Defense Subcommittee. And if the person 
that we're trying to help stabilize a government for him is 
saying these things about us, you have the automatic reaction, 
why the heck are we here then?
    General Petraeus. Well, look, I am entirely sympathetic to 
that, needless to say. And so I will certainly ensure that that 
sentiment is shared with our Afghan partners.
    Chairman Feinstein. I appreciate that very much.
    And again, we will try to get this done just as soon as we 
can. The questions will go out to you tomorrow by 3:00.
    General Petraeus. Terrific.
    Chairman Feinstein. The sooner you get back and get them 
back to us, we will have all Members receive them and schedule 
a markup, and the vote will go to the floor. And somehow I 
don't think it will be controversial.
    General Petraeus. Thank you, Madam Chairman.
    Chairman Feinstein. So thank you very much.
    Senator Levin. General Patraeus, I think it's all of our 
hope that you'll get some time to yourself and your family 
between these two awesome responsibilities. You're entitled to 
that, and we hope you get it somehow.
    General Petraeus. Thank you. Thanks, Mr. Chairman.
    Chairman Feinstein. Yes. In the meantime, take your wife 
out to dinner tonight.
    [Laughter.]
    General Petraeus. That's a novel idea. Thank you.
    Chairman Feinstein. Thank you very much, all of you. The 
hearing is adjourned.
    [Whereupon, at 5:03 p.m., the Committee adjourned.]
                         Supplemental Material
[GRAPHIC] [TIFF OMITTED] 72743.008

[GRAPHIC] [TIFF OMITTED] 72743.009

[GRAPHIC] [TIFF OMITTED] 72743.010

[GRAPHIC] [TIFF OMITTED] 72743.011

[GRAPHIC] [TIFF OMITTED] 72743.012

[GRAPHIC] [TIFF OMITTED] 72743.013

[GRAPHIC] [TIFF OMITTED] 72743.014

[GRAPHIC] [TIFF OMITTED] 72743.015

[GRAPHIC] [TIFF OMITTED] 72743.016

[GRAPHIC] [TIFF OMITTED] 72743.017

[GRAPHIC] [TIFF OMITTED] 72743.018

[GRAPHIC] [TIFF OMITTED] 72743.019

[GRAPHIC] [TIFF OMITTED] 72743.020

[GRAPHIC] [TIFF OMITTED] 72743.021

[GRAPHIC] [TIFF OMITTED] 72743.022

[GRAPHIC] [TIFF OMITTED] 72743.023

[GRAPHIC] [TIFF OMITTED] 72743.024

[GRAPHIC] [TIFF OMITTED] 72743.025

[GRAPHIC] [TIFF OMITTED] 72743.026

[GRAPHIC] [TIFF OMITTED] 72743.027

[GRAPHIC] [TIFF OMITTED] 72743.028

[GRAPHIC] [TIFF OMITTED] 72743.029

[GRAPHIC] [TIFF OMITTED] 72743.030

[GRAPHIC] [TIFF OMITTED] 72743.031

[GRAPHIC] [TIFF OMITTED] 72743.032

[GRAPHIC] [TIFF OMITTED] 72743.033

[GRAPHIC] [TIFF OMITTED] 72743.070

[GRAPHIC] [TIFF OMITTED] 72743.071

[GRAPHIC] [TIFF OMITTED] 72743.072

[GRAPHIC] [TIFF OMITTED] 72743.073

[GRAPHIC] [TIFF OMITTED] 72743.074

[GRAPHIC] [TIFF OMITTED] 72743.075

[GRAPHIC] [TIFF OMITTED] 72743.076

[GRAPHIC] [TIFF OMITTED] 72743.034

[GRAPHIC] [TIFF OMITTED] 72743.035

[GRAPHIC] [TIFF OMITTED] 72743.036

[GRAPHIC] [TIFF OMITTED] 72743.037

[GRAPHIC] [TIFF OMITTED] 72743.038

[GRAPHIC] [TIFF OMITTED] 72743.039

[GRAPHIC] [TIFF OMITTED] 72743.040

[GRAPHIC] [TIFF OMITTED] 72743.041

[GRAPHIC] [TIFF OMITTED] 72743.042

[GRAPHIC] [TIFF OMITTED] 72743.043

[GRAPHIC] [TIFF OMITTED] 72743.044

[GRAPHIC] [TIFF OMITTED] 72743.045

[GRAPHIC] [TIFF OMITTED] 72743.046

[GRAPHIC] [TIFF OMITTED] 72743.047

[GRAPHIC] [TIFF OMITTED] 72743.048

[GRAPHIC] [TIFF OMITTED] 72743.049

[GRAPHIC] [TIFF OMITTED] 72743.050

[GRAPHIC] [TIFF OMITTED] 72743.051

[GRAPHIC] [TIFF OMITTED] 72743.052

[GRAPHIC] [TIFF OMITTED] 72743.053

[GRAPHIC] [TIFF OMITTED] 72743.054

[GRAPHIC] [TIFF OMITTED] 72743.055

[GRAPHIC] [TIFF OMITTED] 72743.056

[GRAPHIC] [TIFF OMITTED] 72743.057

[GRAPHIC] [TIFF OMITTED] 72743.058

[GRAPHIC] [TIFF OMITTED] 72743.059

[GRAPHIC] [TIFF OMITTED] 72743.060

[GRAPHIC] [TIFF OMITTED] 72743.061

[GRAPHIC] [TIFF OMITTED] 72743.062

[GRAPHIC] [TIFF OMITTED] 72743.063

[GRAPHIC] [TIFF OMITTED] 72743.064

[GRAPHIC] [TIFF OMITTED] 72743.065

[GRAPHIC] [TIFF OMITTED] 72743.066

[GRAPHIC] [TIFF OMITTED] 72743.067

[GRAPHIC] [TIFF OMITTED] 72743.068

[GRAPHIC] [TIFF OMITTED] 72743.069

[GRAPHIC] [TIFF OMITTED] 72743.077

[GRAPHIC] [TIFF OMITTED] 72743.078

[GRAPHIC] [TIFF OMITTED] 72743.079

[GRAPHIC] [TIFF OMITTED] 72743.080

[GRAPHIC] [TIFF OMITTED] 72743.081

[GRAPHIC] [TIFF OMITTED] 72743.082

[GRAPHIC] [TIFF OMITTED] 72743.083

[GRAPHIC] [TIFF OMITTED] 72743.084

[GRAPHIC] [TIFF OMITTED] 72743.085

[GRAPHIC] [TIFF OMITTED] 72743.086

[GRAPHIC] [TIFF OMITTED] 72743.087

[GRAPHIC] [TIFF OMITTED] 72743.088

[GRAPHIC] [TIFF OMITTED] 72743.089

[GRAPHIC] [TIFF OMITTED] 72743.090

  

                                  <all>

</pre></body></html>
